Case No.

IN THE SUPREME COURT OF THE UNITED STATES
_____________________________________________________________
ADRIAN TORRES,
Petitioner,
v.
WARREN L. MONTGOMERY, Warden,
Respondent.
________________________________________________________
ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
__________________________________
PETITION FOR WRIT OF CERTIORARI
FAY ARFA, A LAW CORPORATION
Fay Arfa, Attorney at Law
State Bar No. 100143
10100 Santa Monica Blvd., #300
Los Angeles, CA 90067
Tel.: (310) 841-6805
Fax: (310) 841-0817
fayarfa@sbcglobal.net
Attorney for Petitioner
ADRIAN TORRES

TOPICAL INDEX
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
OPINION BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
CONSTITUTIONAL PROVISIONS INVOLVED . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
THE COURT OF APPEAL CASE FACTS . . . . . . . . . . . . . . . . 4
REASONS TO GRANT CERTIORARI . . . . . . . . . . . . . . . . . . 13
I.

TRIAL COUNSEL RENDERED INEFFECTIVE
ASSISTANCE BY FAILING TO INVESTIGATE AND
PRESENT A PTSD EXPERT; AN EVIDENTIARY
HEARING WAS REQUIRED . . . . . . . . . . . . . . . . . . . . . 13

II.

BECAUSE TORRES NEVER TALKED TO THE
POLICE, THE PROSECUTOR COMMITTED
MISCONDUCT BY FALSELY AND PREJUDICIALLY
ARGUING THAT TORRES TESTIFIED
INCONSISTENTLY WITH WHAT HE TOLD THE
POLICE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

III.

A.

The Prosecutor Referred to All Three
Defendants . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

B.

Doyle Error . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

BY EXCLUDING EVIDENCE THAT AN ACCUSER
SUBSEQUENTLY POSSESSED A GUN, THE TRIAL
COURT DEPRIVED TORRES HIS RIGHT TO
PRESENT A DEFENSE . . . . . . . . . . . . . . . . . . . . . . . . . 19
ii

IV.

THE CUMULATIVE EFFECT OF THE ERRORS
MADE TORRES’ CONVICTION A DENIAL OF DUE
PROCESS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

APPENDIX
A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Ninth Circuit Order
B . . . . . . . . . . . . . . . . . . . . . . . . . . . . U.S. District Court Judgment
U.S. District Court Memorandum Decision
C . . . . . . . . . . . . . . . . . . . . . . . . . . CA Supreme Court PFR Denial
CA Court of Appeal Opinion

iii

TABLE OF AUTHORITIES
FEDERAL CASES
Alcala v. Woodford, 334 F.3d 862 (9th Cir. 2003) . . . . . . . . . . . 21
Barefoot v. Estelle, 463 U.S. 880 (1983) . . . . . . . . . . . . . . . . . . . . 22
Crane v. Kentucky, 476 U.S. 683 (1986) . . . . . . . . . . . . . . . . . . . 20
Cullen v. Pinholster, 563 U.S. 170 (2011) . . . . . . . . . . . . . . . . . . 16
Doyle v. Ohio, 426 U.S. 610 (1976) . . . . . . . . . . . . . . . . . . . . . 18, 19
Morris v. Woodford, 229 F.3d 775 (9th Cir. 2000) . . . . . . . . . . . . 21
Nunes v. Mueller, 350 F.3d 1045 (2003) . . . . . . . . . . . . . . . . . . . 16
Pennsylvania v. Ritchie, 480 U.S. 39 (1987) . . . . . . . . . . . . . . . . 20
Slack v. McDaniel, 529 U.S. 473 (2000) . . . . . . . . . . . . . . . . . . . . 22
Taylor v. Maddox, 366 F.3d 992 (9th Cir. 2004) . . . . . . . . . . . . . 16
United States v. Frederick, 78 F.3d 1370 (9th Cir. 1996) . . . . . . 21
United States v. Harp, 536 F.2d 601 (5th Cir. 1978) . . . . . . . . . . 18
United States v. Henderson, 565 F.2d 900 (5th Cir. 1978) . . . . . 18
Washington v. Texas, 388 U.S. 14 (1967) . . . . . . . . . . . . . . . . . . . 20
STATE CASES
People v. Hill, 17 Cal.4th 800 (1998) . . . . . . . . . . . . . . . . . . . . . . 18
People v. Pope, 23 Cal.3d 412 (1979) . . . . . . . . . . . . . . . . . . . . . . 15
Price v. Superior Court, 25 Cal.4th 1046 (2001) . . . . . . . . . . . . . 18
iv

FEDERAL STATUTES
28 U.S.C. § 2253 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
28 U.S.C. § 2254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 4, 13, 16
STATE STATUTES
Cal. Evid. Code § 1103 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Cal. Penal Code § 186.22 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Cal. Penal Code § 187 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Cal. Penal Code § 245 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Cal. Penal Code § 664/187 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Cal. Penal Code § 1192.7 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Cal. Penal Code § 12022.5 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Cal. Veh. Code § 2800.2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

v

Case No.
IN THE UNITED STATES SUPREME COURT
________________________________________________________
ADRIAN TORRES,
Petitioner,
v.
WARREN L. MONTGOMERY, Warden,
Respondent.
_______________________________________________________
QUESTIONS PRESENTED
I.

Did Trial Counsel Render Ineffective Assistance by
Failing to Investigate and Present a PTSD Expert?;
Was an Evidentiary Hearing Was Required?

II.

Although Torres Never Talked to the Police, Did the
Prosecutor Commit Misconduct by Arguing That
Torres Testified Inconsistently with What He Told
the Police?

III.

By Excluding Evidence That an Accuser
Subsequently Possessed a Gun, Did the Trial Court
Deprived Torres His Right to Present a Defense?

IV.

Did the the Cumulative Effect of the Errors Deny
Torres Due Process?

1

Case No.
IN THE UNITED STATES SUPREME COURT
________________________________________________________
ADRIAN TORRES,
Petitioner,
v.
WARREN MONTGOMERY, Warden,
Respondent.
_______________________________________________________
Petitioner, ADRIAN TORRES, petitions for a writ of
certiorari to review the United States Court of Appeal for the
Ninth Circuit’s denial of Torres’ Request for a Certificate of
Appealability. (Appendix A)
OPINION BELOW
On August 13, 2021, the Ninth Circuit Court of Appeals
denied Torres’ request for a certificate of appealability. (Appendix
A)
JURISDICTION
The jurisdiction of this Court is 28 U.S.C. § 2254(1).
CONSTITUTIONAL PROVISIONS INVOLVED
U.S. Const. Amends. V, VI, XIV; 28 U.S.C.§ 2254.

2

STATEMENT OF THE CASE
The prosecution charged Torres and co-defendants, Juan
Ortega and Jesus Vidrio with murder (Cal. Penal Code1, § 187 (a),
Ct. 1); attempted murder (§§ 664/187 (a), Ct. 2); and assault with
a semiautomatic firearm (§ 245 (b), Ct. 3).
The information alleged firearm and gang enhancements (§
12022.53 (d), 186.22 (b)(1) Cts. 1, 2); (§ 12022.5 (a), (d), 1192.7 (c);
Ct.3). Vidrio was also charged with evading an officer. (§ 186.22
(b)(1)) (Cal. Veh. Code, § 2800.2 (a); Ct. 4).
The jury acquitted Torres and Ortega of first degree murder
and convicted them of second degree murder, attempted murder,
and assault with a firearm. The jury found the weapons
allegations true but found the gang allegations untrue. Vidrio
was acquitted of all crimes except evading an officer. (Ct. 4)
The trial court sentenced Torres to 21 years four months
consecutive to 65 years to life in prison.
Torres timely appealed. The Court of Appeal (CCA)
affirmed his convictions. (Case A136219) The California Supreme

All further statutory references are to the Cal. Penal Code
unless otherwise stated.
1

3

Court (CSC) denied review. (Case No. S223898) (Appendix C)
Torres filed a petition for habeas relief in the Solano
County Superior Court (SCSC). (Case No. FCR321882) The SCSC
and the CCA denied the petition. (Case No. A149123) The CSC
denied review. (Case No. S237189)
On June 6, 2016, Torres filed a petition for writ of habeas
corpus (28 U.S.C. § 2254). On May 18, 2020, the Senior United
States District Judge, James K. Singleton, Jr. denied Torres’
habeas petition with prejudice and denied a certificate of
appealability. (Dkt. 27, 28) (Appendix B)
On August 13, 2021, the the Ninth Circuit denied Torres’
request for a Certificate of Appealability. (Appendix A)
THE COURT OF APPEAL CASE FACTS
[On the afternoon of March 5, 2010], then-17year-old Humberto “Beto” Padilla (Padilla) and his
mother’s boyfriend, Alton Johnson, went to Alex
Guizar’s grandmother’s house “down the street” so
that Padilla and Guizar “could straighten out
whatever differences they were having in school.”
Padilla did not go there intending to fight Guizar and
Johnson did not think there would be a fight. Johnson
was a longtime friend of Guizar’s family and had
known Guizar for Guizar’s entire life. Johnson
accompanied Padilla to the grandmother’s house
“[j]ust to make sure that everything goes okay.” At
some point, the discussion between Padilla and
4

Guizar turned into a one-on-one fist fight between
them that “looked even” to Johnson. Padilla and
Johnson returned home, and later that day, Padilla
went out. Some testimony was presented that Padilla
was a Norteño gang associate, and that the fight was
over Guizar having contact with relatives who were
Sureños.2
At about 6:30 p.m. that evening, Padilla was
with K.W. and R.E.,3 standing outside of a friend’s
house, waiting for the friend to finish showering and
get ready so they could all go out together. (1RT 7677) As they waited, they had a discussion about the
fight Padilla had with Guizar earlier that day. (1RT
94) Padilla was upset because he had called K.W. and
a friend to come and back him up in the fight, but the
two had failed to get there in time. K.W. then saw two
men walk by. The individuals, who were wearing
black clothing and beanies, seemed friendly, but
Padilla and R.E. appeared to be suspicious of them
because they did not recognize them. R.E. said, “Yo,
who’s that? We don’t know them,” or may have
possibly said, “They’re not from here.” As the two men
approached, Padilla and R.E., who had been sitting
down, got up to greet them. (1RT 95, 97) [When the
two men stepped forward, Padilla had his hand in his
sweatshirt pocket. (1RT 97)] The bigger of the two
men4 asked, “Hey, you all Norte?” or “You All North
Although a great deal of evidence was presented at trial
relating to the gang charges, [the court] omit[ted] most of that
evidence from our facts because the jury found the gang
allegations untrue.
2

The Court of Appeal identif[ied] victims who were minors
by their initials to protect their anonymity.
3

When K.H. spoke with police, he stated that the shorter of
the two men spoke. Police described Ortega as 5’6” tall, and
Torres as 5’9” tall and heavier.
4

5

Bay?”5 R.E. replied, “Yeah, Rocky Hill Posse”—a
reference K.H. did not understand, but was a
reference to the Norteño gang—and then “dapped”
the man’s hand as a form of handshake. At that point,
the two men stepped back, each pulled out a
handgun, and began firing at Padilla, R.E., and K.W.
(1RT 78, 82, 97)
When asked whether he saw Padilla quickly
pull his hand out of his pocket, K.H. testified that he
“might have,” but that he did not see this occur. K.H.
testified that for the most part the shooters were
aiming at Padilla, although some shots hit the side of
a house and one hit R.E. Padilla was shot in the
upper left side of his back and his right buttock, and
died at the hospital from gunshot wounds. Both
bullets exited the body and it was not possible to tell
the caliber of the bullets that caused the wounds.
R.E., who was 15 years old at the time, was shot in
the buttock. R.E. suffered a puncture wound in his
pelvis and a wound on his buttock, consistent with
gunshot wounds. He was hospitalized for five days
and underwent surgery in which part of his bowel
was removed and a hole in his ureter, a tube
connecting the kidney to the bladder, was repaired.
K.H. testified that he was not armed that day
and did not see either Padilla or R.E. with any
weapons. He testified that he ran from the scene with
R.E. after the shooting and helped him to R.E.’s
grandmother’s house. (1RT 98) At that point, R.E.
said, “I’ll be all right. Get out of here.” As K.W. went
back toward the scene of the shooting to see how
K.W. told police that the man asked, “you all North Bay?”
At trial, K.W. explained that he did not know what “Norte” meant
at the time, as he was relatively new to the area and uninformed
about gangs. He learned after the shooting that the incident may
have been gang related and that R.E. was a Norteño. K.W.
testified that Padilla was
not a Norteño.
5

6

Padilla was doing, he saw that police and medical
personnel had already arrived. K.W. went home
because he did not want to be involved with the
police. He was also worried the shooters might have
accomplices in the area, and he was afraid of having
to become a witness in the case. At trial, K.W.
identified Torres and Vidrio as the shooters. He
acknowledged he did not identify either of them when
asked by police shortly after the incident. He testified
he was about 85 percent certain that Torres and
Vidrio were the shooters. A resident of the Rocky Hill
neighborhood testified that at about 7:40 p.m. on
March 5, 2010, he was at home playing with his
children when he heard gunshots and saw two men
unloading two guns. The resident ran after the men
as they ran up a hill and got into a white car with
tinted windows that was parked almost a block away
from where the men had been shooting. Later, the
police showed the resident a car, which the resident
positively identified as the white car that the men
jumped into at the scene of the shooting.
Vacaville Police Officer Stuart Tan, who was on
duty in an undercover capacity on the evening of
March 5, 2010, testified that he heard 10 to 15
gunshots from two different guns as he walked to his
unmarked vehicle. He then heard a dispatch call that
there had been a shooting, and that the suspect
vehicle was a white Chevy Impala (the Impala) with
tinted windows. Tan drove to an onramp to Highway
80 looking for a car that matched the description.
When he saw the Impala go by in the fast lane of the
freeway, Tan merged onto the freeway to catch up to
it, get a license plate, and see who was inside. Tan
saw three individuals in the car. Tan’s car was not
equipped with emergency lights or equipment so he
was unable to pull the Impala over, but he watched
as marked patrol vehicles caught up. The patrol
vehicles and the Impala all exited the freeway at the
Airbase Parkway exit. The Impala drove at least 45
7

miles per hour through a residential neighborhood
before crashing into a small retaining wall at the side
of a house.
The occupants ran off. The rear-seat passenger,
who was identified as Torres, did not obey commands
to stop and continued to fight after police caught up
with him, but was eventually subdued and
handcuffed. A loaded magazine was found in the
Impala where Torres had been sitting; no weapons
were found on him. The front seat passenger,
identified as Ortega, was found in a garbage can with
the assistance of a canine. Next to him in the garbage
can was a black hooded sweatshirt. The driver of the
Impala, identified as Vidrio, was also stopped and a
search of his person revealed no weapons. Police
searched the Impala and found a black wool ski mask
in the passenger door, two sets of gloves and two cell
phones, and a magazine for a .9mm firearm with four
bullets in it. Police found a magazine for a .9mm
Taurus handgun with 12 rounds in it in the front
yard where the Impala crashed.
Vacaville police officers testified that bullet
casings were scattered along the sidewalk at the
scene of the shootings—.9mm and .45 caliber casings
from two different semi-automatic weapons. An
expert in ballistics and crime scene analysis testified
that the .9mm cartridge casings were fired from the
Taurus .9mm semi-automatic pistol that was
recovered. No firearm was available with which to
compare the .45 caliber bullets that had been fired.
An expert in gunshot residue received samples from
the two sets of gloves that were found in the Impala
and concluded there were particles of gunshot residue
on both sets. DNA evidence established that Torres
and Ortega had worn the gloves.
Ortega, who was 21 years old at the time of the
incident, testified that he joined a Sureño gang when
he was 13 years old and in foster care, and that his
nickname was “Drifter” because he was always in a
8

different home. In March 2010, he was living with
Torres because he had nowhere else to live. Torres
was not a gang member. Ortega testified that on
March 5, 2010, he received a call from his cousin,
Guizar, who was crying and said he had been beaten
up and jumped by Norteños. Guizar told Ortega that
he was being threatened by Norteños and that he
wanted Ortega to come and get him out of the Rocky
Hill neighborhood. After receiving the call, Ortega
called Vidrio and told him to come pick him up. He
also asked Torres to join him and Vidrio. Ortega
testified that he asked Torres to come along because
Torres was his friend, and also because he thought
that taking a non-gang member with him would help
prevent the situation from “escalat[ing]” into a
“Sureño-Norteño thing.” Ortega brought a gun with
him because he always carried a gun for protection.
He had no intentions on using it, but he “felt like [his]
life [was] in danger.”
Ortega testified that he told Vidrio how to get
to Rocky Hill, and where to park the car. Ortega sent
a text message to Guizar asking him where “they”
were. He explained at trial that the “they” in the text
message referred to the Norteños who were
threatening Guizar; he wanted to know where they
were so that he could avoid them. When asked, “So . .
. you’re going to look for your cousin. Why didn’t you
ask your cousin in these text messages where he was
at?”, Ortega responded, “Because I thought I knew
where he lived, because I kind of knew where he lived
at, so I was just going off of what I was remembering.
. . .”
Ortega testified that he and Torres got out of
the car to look for Guizar. They walked to the bottom
of a hill and began to walk back toward where Vidrio
had parked the car, when he heard someone yell,
“[w]ho the fuck are you?” Knowing he was in enemy
territory, Ortega put his hooded sweatshirt on so that
the Sureño tattoos on his neck would not be visible.
9

He stepped back and answered, “[w]ho are you.”
Ortega testified that the person doing the talking
stood out to him and appeared to be very aggressive.
He answered Ortega’s question by saying, “Rocky
Hill,” which Ortega took as a challenge and a threat.
Another one of the three individuals said “yeah.” The
person who said, “yeah” had his hand hidden, as if he
were holding a gun, then made a sudden move like he
was pulling out a gun. Ortega was scared and shaken
when he saw this, and started shooting. Ortega
testified, “I felt like I had to pull my gun before it was
pulled on me. So I felt like my life was in danger.”
After emptying his gun, he ran back up the hill to
Vidrio’s car, got into the car, and told Vidrio to “go.”
Ortega told Vidrio that he thought he had “hit”
someone because he saw someone fall and get back up
and run away after the shooting stopped. The police
pursued him, Torres, and Vidrio, and the chase came
to an end when Vidrio’s car crashed. Ortega
attempted to dispose of the gun by throwing it away
after the crash.
Ortega initially told police he was not involved
and did not know what anyone was talking about.
Then he said he did not know about the gun, even
though he did. Later in the interview, he started to
talk about the phone call from Guizar and going to
Vacaville. He lied to police for most of the interview
and failed to mention self-defense because he lied
about many things and did not know the law. He
testified that he lied to get the interview over with,
and that he kept changing the lie. When he told police
that others “banged on” him, he did not mention selfdefense. He repeatedly tried to end the interview.
Ortega told his ex-girlfriend in a phone call that he
need to pray to God for what he had done.
Torres called Dr. Robert Shomer as an expert in
eyewitness identification. Shomer testified that under
stress, one’s process of perceiving and recording in
memory does not work as accurately as they do in
10

calm situations. Beyond 24 hours, inaccuracy in
identification rises tremendously, and the presence of
guns raises the stress level. He testified that if there
is a hostile interaction, “there’s a tremendous chance
of misperception and misinterpretation of what’s
going on.”
Torres, who was 20 years old at the time of the
incident, also testified in his own defense. He testified
that he grew up in an area with gang members and
had friends who were Sureño or Norteño gang
members, but that he had never been in a gang. In
March 2010, Ortega was living in Torres’s home.
Torres knew Ortega was a Sureño, but Torres had
never committed any crime with gang members, had
never done gang graffiti, and had never gone to gang
functions. On March 5, 2010, Ortega asked Torres if
he would go with him to Vacaville to pick up his
cousin, Guizar, who had been jumped. Torres did not
know Guizar but agreed to go. They got in Vidrio’s car
and drove to Vacaville. Torres was not familiar with
the Rocky Hill neighborhood and did not think there
would be a fight or a confrontation.
Ortega gave Vidrio directions and they drove
around an apartment complex two or three times
without seeing anyone. Torres thought Ortega tried
to call Guizar, but that he could not reach him. Torres
suggested they go home but Ortega told Vidrio to stop
the car, and Torres and Ortega got out of the car.
They saw a group of people, and Torres was a little
scared and walked back a little bit. Someone asked,
“Where the fuck are you guys from?” Torres thought
Ortega said, “Bay Area,” and that one of the others
said, “Rocky Hill Posse.” He also heard someone say
“Yeah.”
One of the men came toward them with his
hand inside his sweater. He pulled his hand out, and
Torres thought he was going to pull out a gun. Torres
turned his back and began to get ready to run. He
heard a gunshot, pulled out his gun, and shot as he
11

ran. He testified he tried to shoot it in the air because
“I didn’t want to hit nobody.”6
He thought if he fired his gun, the others would
get scared and stop firing. He ran to the car and
Vidrio drove off. Torres threw his gun out the window
because he was scared and did not want to get caught
with it. He testified that he was carrying a gun that
day for safety because he had just been jumped,
robbed at gunpoint, and shot at by gang members. He
identified the .9mm gun as his.
Vidrio testified he met Ortega in middle school
or high school and knew Ortega was a Sureño. Vidrio
had known Torres for three years; they would smoke
marijuana together. On the afternoon of March 5,
2010, he and Ortega made arrangements to go smoke
marijuana “on the freeway.” Vidrio drove to Torres’s
place and picked Ortega and Torres up. As Vidrio
drove, Ortega told Vidrio to get off the freeway in
Vacaville and gave him directions. Vidrio was not a
gang member and did not know what Ortega and
Torres were going to do. He did not see either Ortega
or Torres with guns, and neither was wearing gloves
or a hood. Once they arrived in the location Ortega
had directed him to, Ortega and Torres left the car.
As Vidrio was about to make a phone call, he heard
gunshots, and Ortega and Torres ran up to the car.
Ortega said, “I got somebody. I think I shot
somebody,” and told Vidrio to “Go, go.” Vidrio saw
Ortega with a gun. Vidrio did not hear Torres say
anything. When Vidrio heard sirens, he did not pull
over because Ortega had a gun and he was scared for
his life. His car crashed and he took off running but
eventually surrendered.
Michelle Vega, Ortega’s sister, told police that
she received a phone call from Ortega at about 7:04
A police officer testified that a .9mm hole was found in the
grill of a Ford Expedition, and that if a .9mm bullet had been
fired into the air, it would not have gone into the vehicle’s grill.
6

12

p.m. on March 5, 2010. He appeared to be crying and
upset, and she could hear police sirens in the
background. He said he was going away for a long
time, that it was “over” for him, and that he was
going to prison. He also said the whole thing was
Guizar’s fault.
REASONS TO GRANT CERTIORARI
I.

TRIAL COUNSEL RENDERED INEFFECTIVE
ASSISTANCE BY FAILING TO INVESTIGATE
AND PRESENT A PTSD EXPERT; AN
EVIDENTIARY HEARING WAS REQUIRED

Because Torres had been previously jumped, robbed at
gunpoint, and shot at by gang members, he started to carry a
gun for safety. (8RT 1331, 1333, 1335) (Exh. B at 16, 18, 20)7 On
March 5, 2010, when Torres encountered the Nortenos, he
became scared. (8RT 1341) (Exh. B at 26) When Torres saw the
Norteno pull what Torres believed to be a gun out of his shirt,
Torres fired his gun because he feared for his life. (8RT 1341,
1342, 1343, 1364, 1365, 1372, 1373, 1393) (Exh. B at 26, 27, 28,
49, 50, 57, 58, 78)
Dr. Kevin Booker, a PTSD expert, would have testified that
Torres, who had been previously shot at, jumped and robbed at
Torres’ Exhibits A - E refer to the Exhibits filed with
Torres’ June 6, 2016 federal § 2254 habeas petition. (Dkt. 1)
Exhibits F - G are attached to Torres’ traverse. (Dkt. 21).
7

13

gunpoint, suffered from a classic case of PTSD. (Exh. A at 4) On
March 5, 2010, Torres suffered a subjective experience of fear
that led him to perceive his life was in danger and caused “an
acute survival response –‘fight’ which ultimately overrode some of
his executive decision-making abilities . . .” (Exh. A at 4)
The SCSC found Torres failed to make a prima facie case
because Torres testified that he shot into the air while running
away and “did not shoot the victims.” (Original italics.) Trial
counsel admitted that he had no strategic reason not to consult
with a PTSD expert. The SCSC found that, even if trial counsel
consulted with a PTSD expert, the result would not have differed
because trial counsel had no reason to pursue an inconsistent
defense.
Torres disagrees. A defense PTSD expert would have been
consistent with Torres’ defense. Dr. Booker would have testified
that, “Firing a gun up in the air while in fear or in the throes of
panic and during activation of the fight mechanism, is consistent
with my opinion that Torres’ fight response overrode some of his
executive decision-making abilities because this is considered
impulse driven, ‘inappropriate’ social behavior; also known as
14

‘disinhibition.’” (Exh. F at 4, ¶8)
Dr. Booker would have testified, based on Torres’ “extensive
trauma history,” Torres fired his gun out of fear for his life. (Exh.
A at 4) Torres testified, based on his past traumatic experiences,
he fired out of fright because he thought the Norteno would pull
out a gun and kill him. (RT 1344) (Exh. B at 29) Torres testified,
“I thought he was going to kill me. I thought he was shooting at
me.” (RT 1346) (Exh. B at 31)
The SCSC also unreasonably refused to hold an evidentiary
hearing. Instead, the SCSC found that “even if trial counsel had
consulted with a PTSD expert, there is no indication he would
have used his testimony at trial, or altered his trial testimony in
any way.” The SCSC should have held an evidentiary hearing to
allow Torres to present his evidence and prove that trial counsel
rendered ineffective assistance by failing to investigate and
present a PTSD expert. See, e.g., People v. Pope, 23 Cal.3d 412,
426 (1979) (An evidentiary hearing allows trial counsel to fully
describe “his or her reasons for acting or failing to act in the
manner complained of.") Trial counsel signed a declaration
admitting that he failed to investigate whether to present a PTSD
15

expert. Instead, the SCSC disregarded trial counsel’s declaration
and unreasonably found that trial counsel “had no reason to
pursue a strategy based at bolstering [Torres’] claim that he shot
in self defense based on Torres’ denial that he shot the victims.”
(Dkt. 19, Exh. 11 at 2-3)
Torres made a prima facie showing for ineffective
assistance of counsel supported by uncontradicted declarations
and other documentary evidence in the California courts. (Dkt. 1;
Exhs. A, B, C) Assuming the affidavit and other evidence to be
true (see Cullen v. Pinholster, 563 U.S. 170, 188 n. 12, 131 S. Ct.
1388, 1402-03, n. 12 (2011)) nothing more was required for a
prima facie case. See Nunes v. Mueller, 350 F.3d 1045, 1054
(2003) (taking petitioner’s claims at “face value,” petitioner
clearly made out a prima facie case of ineffective assistance . . . ”)
Because no court must give AEDPA deference under
2254(d)(2) or (e)(1) where the state has made an "unreasonable"
determination of the facts, no deference is due in federal court to
the state court’s disputed findings of fact. Taylor v. Maddox, 366
F.3d 992, 1001 (9th Cir. 2004) ("Where a state court makes
evidentiary findings without holding a hearing and giving
16

petitioner an opportunity to present evidence, such findings
clearly result in an "unreasonable determination" of the facts.");
see, e.g., Hurles v Ryan, 752 F3d 768, 790 (9th Cir. 2014) (state
court factual findings not entitled to presumption of correctness
when state court fact-finding process was fundamentally flawed).
II.

ALTHOUGH TORRES NEVER TALKED TO THE
POLICE, THE PROSECUTOR COMMITTED
MISCONDUCT BY ARGUING THAT TORRES
TESTIFIED INCONSISTENTLY WITH WHAT
HE TOLD THE POLICE

A.

The Prosecutor Referred to All Three
Defendants

During closing, over defense objection, the prosecutor,
argued that the defendants’ statements to the police differed from
the defendants’ trial testimony. (9 RT 1584, 1674-1675.) The
prosecution committed misconduct because the prosecution
presented no evidence that Torres spoke to the police.
The Court of Appeal found that the prosecutor referred only
to co-defendants Ortega and Vidrio, not Torres. The Court of
Appeal found that the trial court issued proper limiting
instructions regarding Ortega’s and Vidrio’s statements. (Exh. 8
at 18-19, fn. 8)
The Court of Appeal overlooked that the prosecutor’s
17

arguments included all three defendants--not just Ortega and
Vidrio. (9 RT 1674-1675.) The jurors would have concluded that
Torres made contradictory statements and the prosecutor had
extra-judicial information that Torres made statements to the
police that differed from his testimony. In fact, Torres never
spoke to the police.
B.

Doyle Error

The prosecutor’s comment on Torres’ post-arrest silence
also violated Doyle v. Ohio, 426 U.S. 610 (1976) by referring to
facts not in evidence in violation of People v. Hill, 17 Cal.4th 800
(1998), overruled on another ground in Price v. Superior Court, 25
Cal.4th 1046, 1059 n. 13 (2001), and implied the prosecutor had
undisclosed information -- that Torres told the police a story that
differed from trial testimony.
Such prosecutorial statements have been found to be
prejudicial error. See United States v. Henderson, 565 F.2d 900,
905 (5th Cir. 1978)(Prosecutor made highly prejudicial comments
about appellant’s silence to convey the impression to the jury that
he was guilty); United States v. Harp, 536 F.2d 601 (5th Cir.
1978) (Convictions reversed because prosecutor implied the
testifying defendants fabricated their story because they never
18

previously told their exculpatory story.) Id., at 602, n. 2.
The Court of Appeal found no Doyle error because the
prosecutor later limited her arguments to what Ortega and Vibrio
told the police and did not mention that Torres spoke to the
police. (Slip Opn. 19)
Torres disagrees. The prosecutor’s improper arguments,
that Torres changed his story, struck at the heart of Torres’ sole
defense, namely self-defense (See, e.g., 9 RT 1641, 1645-1646).
The prosecutor’s inaccurate comments affected Torres’ case
because the prosecutor implied Torres fabricated his defense.
III.

BY EXCLUDING EVIDENCE THAT AN
ACCUSER SUBSEQUENTLY POSSESSED A
GUN, THE TRIAL COURT DEPRIVED TORRES
HIS RIGHT TO PRESENT A DEFENSE

Torres testified he shot because he feared for his life. (See,
e.g., 9 RT 1641, 1645-1646.) As several men approached him and
Ortega, he heard someone say “Rocky Hill Posse.” Torres became
“kind of scared.” When one of the men pulled out his hand from
inside his shirt, Torres believed the man was going to pull out a
gun. Torres turned his back, heard a gunshot and shot his gun. (8
RT 1341-43, 1367, 1393.)
The trial court excluded evidence that, after the incident,

19

R.E. subsequently carried guns. Cal. Evid. Code § 1103. (OCT
182-186; 1 RT 24.) The subsequent incidents would have created
a strong inference that the alleged victims carried guns on the
night of the March 5, 2010 incident.
A criminal defendant, had the right to present a defense,
including his version of the facts and witnesses who will testify on
his behalf. Washington v. Texas, 388 U.S. 14, 19 (1967); Crane v.
Kentucky, 476 U.S. 683, 690-691 (1986).
The CCA unreasonably found that evidence, that R.E.
subsequently carried a gun, lacked relevancy and would have
confused the jury. (Slip Opn. 21)
Torres disagrees. Because, even if, R.E. became a “gun
carrying gang member” after the incident, Torres’ defense would
not have suffered. R.E.’s behavior would have corroborated
Torres’ defense that his PTSD resulted from prior shootings and
he, too, began to carry a gun.
The trial court’s evidentiary ruling deprived Torres of his
constitutional right to present “ . . . evidence that might
influence the determination of guilt.” Pennsylvania v. Ritchie,
480 U.S. 39, 5 (1987); Washington v. Texas, 388 U.S. at 19
(1967) (“ . . . [The accused] has the right to present his own
20

witnesses to establish a defense. This right is a fundamental
element of due process of law.”)
IV.

THE CUMULATIVE EFFECT OF THE ERRORS
MADE TORRES’ CONVICTION A DENIAL OF
DUE PROCESS

The cumulative errors deprived Torres of due process.
Federal courts have recognized the importance of considering “the
cumulative effect of multiple errors” and not simply conducting “a
balkanized, issue-by-issue harmless error review.” Alcala v.
Woodford, 334 F.3d 862, 893- 894 (9th Cir. 2003); United States
v. Frederick, 78 F.3d 1370, 1381 (9th Cir. 1996).
CONCLUSION
A certificate of appealability should have issued because
“(1) ' . . . jurists of reason would find it debatable whether the
district court was correct in its procedural ruling'; and (2) ' . . .
jurists of reason would find it debatable whether the petition
states a valid claim of the denial of a constitutional right.'" Morris
v. Woodford, 229 F.3d at 780.
A COA should also have been issued under 28 U.S. C. §
2253 because “. . . reasonable jurists could debate whether (or, . . .
agree that) the petition should have been resolved in a different
manner or that the issues presented were ‘adequate to deserve
21

encouragement to proceed further.’” Slack v. McDaniel, 529 U.S.
473 (quoting Barefoot v. Estelle, 463 U.S. 880, 893 and n. 4
(1983).)
DATED: October 7, 2021
Respectfully submitted,
FAY ARFA, A LAW CORPORATION

/s Fay Arfa

______________________________
Fay Arfa, Attorney for Petitioner

22

APPENDIX

Case: 20-15980, 08/13/2021, ID: 12201208, DktEntry: 3, Page 1 of 1

UNITED STATES COURT OF APPEALS

FILED
AUG 13 2021

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

ADRIAN TORRES,

No.

Petitioner-Appellant,
v.
WARREN MONTGOMERY,

20-15980

D.C. No. 2:16-cv-01245-JKS
Eastern District of California,
Sacramento
ORDER

Respondent-Appellee.
Before:

M. SMITH and HURWITZ, Circuit Judges.

The request for a certificate of appealability (Docket Entry No. 2) is denied
because appellant has not made a “substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2); see also Miller-El v. Cockrell, 537
U.S. 322, 327 (2003).
Any pending motions are denied as moot.
DENIED.

APPENDIX A

Case 2:16-cv-01245-JKS Document 28 Filed 05/18/20 Page 1 of 1

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA

JUDGMENT IN A CIVIL CASE
ADRIAN TORRES,
CASE NO: 2:16−CV−01245−JKS

v.
WARREN MONTGOMERY,

Decision by the Court. This action came before the Court. The issues have been tried,
heard or decided by the judge as follows:
IT IS ORDERED AND ADJUDGED
THAT JUDGMENT IS HEREBY ENTERED IN ACCORDANCE WITH THE
COURT'S ORDER FILED ON 5/18/2020

Keith Holland
Clerk of Court

ENTERED: May 18, 2020

by: /s/ H. Kaminski
Deputy Clerk

APPENDIX B

Case 2:16-cv-01245-JKS Document 27 Filed 05/18/20 Page 1 of 34

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF CALIFORNIA
ADRIAN TORRES,
No. 2:16-cv-01245-JKS
Petitioner,
vs.

MEMORANDUM DECISION

WARREN MONTGOMERY, Warden,
Calipatria State Prison,
Respondent.

Adrian Torres, a state prisoner represented by counsel, filed a Petition for a Writ of
Habeas Corpus with this Court pursuant to 28 U.S.C. § 2254. Torres is in the custody of the
California Department of Corrections and Rehabilitation and incarcerated at Calipatria State
Prison. Respondent has answered, and Torres has replied.
I. BACKGROUND/PRIOR PROCEEDINGS
On October 13, 2010, Torres, along with co-defendants Rudolfo Raymond Ortega, Jr.,
and Jesus Antonio Vidrio, was charged with the murder of Humberto Padilla (Count 1); the
attempted murder of minor R.E.1 (Count 2); and assault with a semiautomatic firearm against
minor K.W. (Count 3). The information alleged as to Counts 1 and 2 that the defendants:
1) personally and intentionally discharged a firearm that proximately caused great bodily injury
and death to Padilla; and 2) committed the crimes for the benefit of a criminal street gang. The
information further alleged as to Count 3 that Torres and Ortega personally used a firearm. On

1

This Court will, like the California Court of Appeal, identify the living victims
who were minors by their initials to protect their anonymity.

APPENDIX B

Case 2:16-cv-01245-JKS Document 27 Filed 05/18/20 Page 2 of 34

direct appeal of his conviction, the California Court of Appeal laid out the following facts
underlying the charges against Torres:
The information was based on an incident that occurred on March 5, 2010. That
afternoon, then–17–year–old Humberto “Beto” Padilla (Padilla) and his mother’s
boyfriend, Alton Johnson, went to Alex Guizar’s grandmother’s house “down the street”
so that Padilla and Guizar “could straighten out whatever differences they were having in
school.” Padilla did not go there intending to fight Guizar and Johnson did not think
there would be a fight. Johnson was a longtime friend of Guizar’s family and had known
Guizar for Guizar’s entire life. Johnson accompanied Padilla to the grandmother’s house
“[j]ust to make sure that everything goes okay.” At some point, the discussion between
Padilla and Guizar turned into a one-on-one fist fight between them that “looked even” to
Johnson. Padilla and Johnson returned home, and later that day, Padilla went out. Some
testimony was presented that Padilla was a Norteño gang associate, and that the fight was
over Guizar having contact with relatives who were Sureños.FN2
FN2. Although a great deal of evidence was presented at trial relating to the
gang charges, we omit most of that evidence from our facts because the
jury found the gang allegations untrue.
At about 6:30 p.m. that evening, Padilla was with K.W. and R.E.,FN3 standing
outside of a friend’s house, waiting for the friend to finish showering and get ready so
they could all go out together. As they waited, they had a discussion about the fight
Padilla had with Guizar earlier that day. Padilla was upset because he had called K.W.
and a friend to come and back him up in the fight, but the two had failed to get there in
time.
FN3. We will identify the living victims who were minors by their initials to
protect their anonymity.
K.W. then saw two men walk by. The individuals, who were wearing black
clothing and beanies, seemed friendly, but Padilla and R.E. appeared to be suspicious of
them because they did not recognize them. R.E. said, “Yo, who’s that? We don’t know
them,” or may have possibly said, “They’re not from here.” As the two men approached,
Padilla and R.E., who had been sitting down, got up to greet them. The bigger of the two
menFN4 asked, “Hey, you all Norte?” or “you all north bay?”FN5 R.E. replied, “Yeah,
Rocky Hill Posse”—a reference K.H. did not understand, but was a reference to the
Norteño gang—and then “dapped” the man’s hand as a form of handshake. At that point,
the two men stepped back, each pulled out a handgun, and began firing at Padilla, R.E.,
and K.W.

2

APPENDIX B

Case 2:16-cv-01245-JKS Document 27 Filed 05/18/20 Page 3 of 34

FN4. When K.H. spoke with police, he stated that the shorter of the two men
spoke. Police described Ortega as 5’6” tall, and Torres as 5’9” tall and
heavier.
FN5. K.W. told police that the man asked, “you all north bay?” At trial, K.W.
explained that he did not know what “Norte” meant at the time, as he was
relatively new to the area and uninformed about gangs. He learned after
the shooting that the incident may have been gang related and that R.E.
was a Norteño. K.W. testified that Padilla was not a Norteño.
When asked whether he saw Padilla quickly pull his hand out of his pocket, K.H.
testified that he “might have,” but that he did not see this occur. K.H. testified that for
the most part the shooters were aiming at Padilla, although some shots hit the side of a
house and one hit R.E. Padilla was shot in the upper left side of his back and his right
buttock, and died at the hospital from gunshot wounds. Both bullets exited the body and
it was not possible to tell the caliber of the bullets that caused the wounds. R.E., who
was 15 years old at the time, was shot in the buttock. R.E. suffered a puncture wound in
his pelvis and a wound on his buttock, consistent with gunshot wounds. He was
hospitalized for five days and underwent surgery in which part of his bowel was removed
and a hole in his ureter, a tube connecting the kidney to the bladder, was repaired.
K.H. testified that he was not armed that day and did not see either Padilla or R.E.
with any weapons. He testified that he ran from the scene with R.E. after the shooting
and helped him to R.E.’s grandmother’s house. At that point, R.E. said, “I’ll be all right.
Get out of here.” As K.W. went back toward the scene of the shooting to see how Padilla
was doing, he saw that police and medical personnel had already arrived. K.W. went
home because he did not want to be involved with the police. He was also worried the
shooters might have accomplices in the area, and he was afraid of having to become a
witness in the case. At trial, K.W. identified Torres and Vidrio as the shooters. He
acknowledged he did not identify either of them when asked by police shortly after the
incident. He testified he was about 85 percent certain that Torres and Vidrio were the
shooters.
A resident of the Rocky Hill neighborhood testified that at about 7:40 p.m. on
March 5, 2010, he was at home playing with his children when he heard gunshots and
saw two men unloading two guns. The resident ran after the men as they ran up a hill
and got into a white car with tinted windows that was parked almost a block away from
where the men had been shooting. Later, the police showed the resident a car, which the
resident positively identified as the white car that the men jumped into at the scene of the
shooting.
Vacaville Police Officer Stuart Tan, who was on duty in an undercover capacity
on the evening of March 5, 2010, testified that he heard 10 to 15 gunshots from two
different guns as he walked to his unmarked vehicle. He then heard a dispatch call that
there had been a shooting, and that the suspect vehicle was a white Chevy Impala (the
Impala) with tinted windows. Tan drove to an onramp to Highway 80 looking for a car
that matched the description. When he saw the Impala go by in the fast lane of the
3

APPENDIX B

Case 2:16-cv-01245-JKS Document 27 Filed 05/18/20 Page 4 of 34

freeway, Tan merged onto the freeway to catch up to it, get a license plate, and see who
was inside. Tan saw three individuals in the car. Tan’s car was not equipped with
emergency lights or equipment so he was unable to pull the Impala over, but he watched
as marked patrol vehicles caught up. The patrol vehicles and the Impala all exited the
freeway at the Airbase Parkway exit. The Impala drove at least 45 miles per hour
through a residential neighborhood before crashing into a small retaining wall at the side
of a house.
The occupants ran off. The rear-seat passenger, who was identified as Torres, did
not obey commands to stop and continued to fight after police caught up with him, but
was eventually subdued and handcuffed. A loaded magazine was found in the Impala
where Torres had been sitting; no weapons were found on him. The front seat passenger,
identified as Ortega, was found in a garbage can with the assistance of a canine. Next to
him in the garbage can was a black hooded sweatshirt. The driver of the Impala,
identified as Vidrio, was also stopped and a search of his person revealed no weapons.
Police searched the Impala and found a black wool ski mask in the passenger
door, two sets of gloves and two cell phones, and a magazine for a .9mm firearm with
four bullets in it. Police found a magazine for a .9mm Taurus handgun with 12 rounds in
it in the front yard where the Impala crashed.
Vacaville police officers testified that bullet casings were scattered along the
sidewalk at the scene of the shootings—.9mm and .45 caliber casings from two different
semi-automatic weapons. An expert in ballistics and crime scene analysis testified that
the .9mm cartridge casings were fired from the Taurus .9mm semi-automatic pistol that
was recovered. No firearm was available with which to compare the .45 caliber bullets
that had been fired. An expert in gunshot residue received samples from the two sets of
gloves that were found in the Impala and concluded there were particles of gunshot
residue on both sets. DNA evidence established that Torres and Ortega had worn the
gloves.
Ortega, who was 21 years old at the time of the incident, testified that he joined a
Sureño gang when he was 13 years old and in foster care, and that his nickname was
“Drifter” because he was always in a different home. In March 2010, he was living with
Torres because he had nowhere else to live. Torres was not a gang member. Ortega
testified that on March 5, 2010, he received a call from his cousin, Guizar, who was
crying and said he had been beaten up and jumped by Norteños. Guizar told Ortega that
he was being threatened by Norteños and that he wanted Ortega to come and get him out
of the Rocky Hill neighborhood. After receiving the call, Ortega called Vidrio and told
him to come pick him up. He also asked Torres to join him and Vidrio. Ortega testified
that he asked Torres to come along because Torres was his friend, and also because he
thought that taking a non-gang member with him would help prevent the situation from
“escalat[ing]” into a “Sureño–Norteño thing.” Ortega brought a gun with him because he
always carried a gun for protection. He had no intentions on using it, but he “felt like
[his] life [was] in danger.”
Ortega testified that he told Vidrio how to get to Rocky Hill, and where to park
the car. Ortega sent a text message to Guizar asking him where “they” were. He
explained at trial that the “they” in the text message referred to the Norteños who were
4

APPENDIX B

Case 2:16-cv-01245-JKS Document 27 Filed 05/18/20 Page 5 of 34

threatening Guizar; he wanted to know where they were so that he could avoid them.
When asked, “So . . . you’re going to look for your cousin. Why didn’t you ask your
cousin in these text messages where he was at?”, Ortega responded, “Because I thought I
knew where he lived, because I kind of knew where he lived at, so I was just going off of
what I was remembering. . . .” Ortega testified that he and Torres got out of the car to
look for Guizar. They walked to the bottom of a hill and began to walk back toward
where Vidrio had parked the car, when he heard someone yell, “[w]ho the fuck are you?”
Knowing he was in enemy territory, Ortega put his hooded sweatshirt on so that the
Sureño tattoos on his neck would not be visible. He stepped back and answered, “[w]ho
are you.”
Ortega testified that the person doing the talking stood out to him and appeared to
be very aggressive. He answered Ortega’s question by saying, “Rocky Hill,” which
Ortega took as a challenge and a threat. Another one of the three individuals said “yeah.”
The person who said, “yeah” had his hand hidden, as if he were holding a gun, then made
a sudden move like he was pulling out a gun. Ortega was scared and shaken when he
saw this, and started shooting. Ortega testified, “I felt like I had to pull my gun before it
was pulled on me. So I felt like my life was in danger.” After emptying his gun, he ran
back up the hill to Vidrio’s car, got into the car, and told Vidrio to “go.” Ortega told
Vidrio that he thought he had “hit” someone because he saw someone fall and get back
up and run away after the shooting stopped. The police pursued him, Torres, and Vidrio,
and the chase came to an end when Vidrio’s car crashed. Ortega attempted to dispose of
the gun by throwing it away after the crash.
Ortega initially told police he was not involved and did not know what anyone
was talking about. Then he said he did not know about the gun, even though he did.
Later in the interview, he started to talk about the phone call from Guizar and going to
Vacaville. He lied to police for most of the interview and failed to mention self-defense
because he lied about many things and did not know the law. He testified that he lied to
get the interview over with, and that he kept changing the lie. When he told police that
others “banged on” him, he did not mention self-defense. He repeatedly tried to end the
interview. Ortega told his ex-girlfriend in a phone call that he need to pray to God for
what he had done.
Torres called Dr. Robert Shomer as an expert in eyewitness identification.
Shomer testified that under stress, one’s process of perceiving and recording in memory
does not work as accurately as they do in calm situations. Beyond 24 hours, inaccuracy
in identification rises tremendously, and the presence of guns raises the stress level. He
testified that if there is a hostile interaction, “there’s a tremendous chance of
misperception and misinterpretation of what’s going on.”
Torres, who was 20 years old at the time of the incident, also testified in his own
defense. He testified that he grew up in an area with gang members and had friends who
were Sureño or Norteño gang members, but that he had never been in a gang. In March
2010, Ortega was living in Torres’s home. Torres knew Ortega was a Sureño, but Torres
had never committed any crime with gang members, had never done gang graffiti, and
had never gone to gang functions. On March 5, 2010, Ortega asked Torres if he would
go with him to Vacaville to pick up his cousin, Guizar, who had been jumped. Torres did
5

APPENDIX B

Case 2:16-cv-01245-JKS Document 27 Filed 05/18/20 Page 6 of 34

not know Guizar but agreed to go. They got in Vidrio’s car and drove to Vacaville.
Torres was not familiar with the Rocky Hill neighborhood and did not think there would
be a fight or a confrontation.
Ortega gave Vidrio directions and they drove around an apartment complex two
or three times without seeing anyone. Torres thought Ortega tried to call Guizar, but that
he could not reach him. Torres suggested they go home but Ortega told Vidrio to stop
the car, and Torres and Ortega got out of the car. They saw a group of people, and Torres
was a little scared and walked back a little bit. Someone asked, “Where the fuck are you
guys from?” Torres thought Ortega said, “Bay Area,” and that one of the others said,
“Rocky Hill Posse.” He also heard someone say “Yeah.”
One of the men came toward them with his hand inside his sweater. He pulled his
hand out, and Torres thought he was going to pull out a gun. Torres turned his back and
began to get ready to run. He heard a gunshot, pulled out his gun, and shot as he ran. He
testified he tried to shoot it in the air because “I didn’t want to hit nobody.”FN6 He
thought if he fired his gun, the others would get scared and stop firing. He ran to the car
and Vidrio drove off. Torres threw his gun out the window because he was scared and
did not want to get caught with it. He testified that he was carrying a gun that day for
safety because he had just been jumped, robbed at gunpoint, and shot at by gang
members. He identified the .9mm gun as his.
FN6. A police officer testified that a .9mm hole was found in the grill of a Ford
Expedition, and that if a .9mm bullet had been fired into the air, it would
not have gone into the vehicle’s grill.
Vidrio testified he met Ortega in middle school or high school and knew Ortega
was a Sureño. Vidrio had known Torres for three years; they would smoke marijuana
together. On the afternoon of March 5, 2010, he and Ortega made arrangements to go
smoke marijuana “on the freeway.” Vidrio drove to Torres’s place and picked Ortega
and Torres up. As Vidrio drove, Ortega told Vidrio to get off the freeway in Vacaville
and gave him directions. Vidrio was not a gang member and did not know what Ortega
and Torres were going to do. He did not see either Ortega or Torres with guns, and
neither was wearing gloves or a hood. Once they arrived in the location Ortega had
directed him to, Ortega and Torres left the car. As Vidrio was about to make a phone
call, he heard gunshots, and Ortega and Torres ran up to the car. Ortega said, “I got
somebody. I think I shot somebody,” and told Vidrio to “Go, go.” Vidrio saw Ortega
with a gun. Vidrio did not hear Torres say anything. When Vidrio heard sirens, he did
not pull over because Ortega had a gun and he was scared for his life. His car crashed
and he took off running but eventually surrendered.
Michelle Vega, Ortega’s sister, told police that she received a phone call from
Ortega at about 7:04 p.m. on March 5, 2010. He appeared to be crying and upset, and she
could hear police sirens in the background. He said he was going away for a long time,
that it was “over” for him, and that he was going to prison. He also said the whole thing
was Guizar’s fault.

6

APPENDIX B

Case 2:16-cv-01245-JKS Document 27 Filed 05/18/20 Page 7 of 34

People v. Torres, Nos. A136219, A136232, 2014 WL 7151567, at *2-5 (Cal. Ct. App. Dec. 16,
2014).
At the conclusion of trial, the jury found Torres not guilty of first-degree murder, but
convicted him of second-degree murder. The jury also convicted Torres of attempted murder
and assault with a firearm, as charged in Counts 2 and 3, and found true the weapons allegations
in Counts 1-3.2 The jury found the gang allegations to be not true. The trial court subsequently
sentenced Torres to a total determinate imprisonment term of 21 years and 4 months and a total
indeterminate term of 65 years to life imprisonment.3
Through counsel, Torres appealed his conviction, arguing that: 1) the prosecutor
committed misconduct during summation by implying that he had told a different story to police
when he was interviewed on the day of the incident because there was no evidence presented to
the jury that he had even spoken to police; 2) the trial court erred by refusing to allow the
defense to admit evidence that R.E. possessed a gun on two dates after the incident occurred; 3)
the cumulative effect of those errors warranted reversal of his convictions; 4) his aggregate
sentence of 86 years and 4 months to life imprisonment constitutes cruel and unusual
punishment, and counsel rendered ineffective assistance at sentencing by failing to object to the
sentence as cruel and unusual. Torres also joined in the arguments of his co-appellant Ortega.
The California Court of Appeal unanimously affirmed the judgment against Torres in a reasoned,

2

The jury convicted Ortega of the same offenses and also found true as to Ortega
the weapons allegations in Counts 1-3. The jury acquitted Vidrio of Counts 1, 2, and 3 but found
him guilty of evading an officer and driving with willful disregard (Count 4), which was charged
against Vidrio alone.
3

Ortega received the same sentence. Vidrio was sentenced to 3 years’
imprisonment on his conviction for evading an officer and driving with willful disregard.
7

APPENDIX B

Case 2:16-cv-01245-JKS Document 27 Filed 05/18/20 Page 8 of 34

unpublished opinion issued on December 16, 2014. Torres, 2014 WL 7151567, at *13.4 Torres
petitioned for review in the California Supreme Court, which was summarily denied on March
11, 2015. Docket No. 19-8 at 300.
Torres then filed a counseled petition for habeas relief in the Solano County Superior
Court. In that petition, Torres alleged that: 1) trial counsel was ineffective for failing to
investigate and present a post-traumatic stress disorder (“PTSD”) expert to testify that Torres
shot the victims because of a genuine but unreasonable belief that his life was in danger which
was prompted by his repeated prior encounters with gang members that rendered him prone to
violent overreaction; 2) the trial judge erred by failing to properly instruct the jury on lesserincluded offenses to the murder charges; and 3) the trial court failed to include the portion of
CALCRIM No. 520 that states that murder must be “without lawful excuse or justification.” The
superior court denied the petition on July 25, 2016, after concluding that Torres failed to state a
prima facie case for relief on any of his claims. Docket No. 19-8 at 303.
While his state habeas petition was pending in the superior court, Torres timely filed a
counseled Petition for a Writ of Habeas Corpus in this Court on June 6, 2016. Docket No. 1
(“Petition”); see 28 U.S.C. § 2244(d)(1),(2). Respondent moved to dismiss for failure to exhaust
state court remedies. Docket No. 9. In response, Torres moved to stay his Petition, which
Respondent did not oppose. Docket Nos. 10, 11. This Court, through a previously-assigned
magistrate judge, stayed these proceedings pending exhaustion. Docket No. 13.

4

The Court of Appeal also unanimously affirmed the judgment against Ortega.
Torres, 2014 WL 7151567, at *13.
8

APPENDIX B

Case 2:16-cv-01245-JKS Document 27 Filed 05/18/20 Page 9 of 34

Torres then filed a counseled habeas petition in the California Court of Appeal, raising
the same ineffective assistance and instructional error claims he had raised in his habeas petition
in the superior court. The Court of Appeal denied the petition without comment on September 7,
2016. Docket No. 19-8 at 372.
Torres raised the same claims to the California Supreme Court in a “petition for review
after denial of petition for writ of habeas corpus.” The Supreme Court similarly denied the
petition without comment on November 9, 2016. Docket No. 19-8 at 429.
Following the Supreme Court’s denial, this Court lifted the stay and ordered a response.
Docket No. 15. Briefing is now complete, and the case is before the undersigned judge for
adjudication.
II. GROUNDS/CLAIMS
In his counseled Petition before this Court, Torres argues that: 1) trial counsel rendered
ineffective assistance by failing to investigate and present expert PTSD testimony; 2) the trial
court failed to properly instruct the jury on murder and on lesser-included offenses; 3) the
prosecutor committed misconduct in closing by making false and prejudicial comments as to
Torres’ alleged statements to police; 4) Torres’ rights to due process and to present a defense
were violated by the trial court’s exclusion of evidence that one victim possessed a gun on two
subsequent occasions; 5) the cumulative effect of the errors warranted reversal of his conviction;
6) Torres’ aggregate sentence of 86 years and 4 months to life imprisonment constitutes cruel
and unusual punishment; and 7) alternatively, counsel was ineffective at sentencing for failing to
object to the sentence as cruel and unusual.

9

APPENDIX B

Case 2:16-cv-01245-JKS Document 27 Filed 05/18/20 Page 10 of 34

III. STANDARD OF REVIEW
Under the Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”), 28 U.S.C.
§ 2254(d), this Court cannot grant relief unless the decision of the state court was “contrary to, or
involved an unreasonable application of, clearly established Federal law, as determined by the
Supreme Court of the United States,” § 2254(d)(1), or “was based on an unreasonable
determination of the facts in light of the evidence presented in the State court proceeding,”
§ 2254(d)(2). A state-court decision is contrary to federal law if the state court applies a rule that
contradicts controlling Supreme Court authority or “if the state court confronts a set of facts that
are materially indistinguishable from a decision” of the Supreme Court, but nevertheless arrives
at a different result. Williams v. Taylor, 529 U.S. 362, 406 (2000). The term unreasonable is a
common term in the legal world. The Supreme Court has cautioned, however, that the range of
reasonable judgments may depend in part on the nature of the relevant rule argued to be clearly
established federal law. Yarborough v. Alvarado, 541 U.S. 652, 664 (2004) (“[E]valuating
whether a rule application was unreasonable requires considering the rule’s specificity. The
more general the rule, the more leeway courts have in reaching outcomes in case-by-case
determinations.”).
The Supreme Court has explained that “clearly established Federal law” in § 2254(d)(1)
“refers to the holdings, as opposed to the dicta, of [the Supreme Court] as of the time of the
relevant state-court decision.” Id. at 412. The holding must also be intended to be binding upon
the states; that is, the decision must be based upon constitutional grounds, not on the supervisory
power of the Supreme Court over federal courts. Early v. Packer, 537 U.S. 3, 10 (2002). Where
holdings of the Supreme Court regarding the issue presented on habeas review are lacking, “it

10

APPENDIX B

Case 2:16-cv-01245-JKS Document 27 Filed 05/18/20 Page 11 of 34

cannot be said that the state court ‘unreasonabl[y] appli[ed] clearly established Federal law.’”
Carey v. Musladin, 549 U.S. 70, 77 (2006) (citation omitted).
To the extent that the Petition raises issues of the proper application of state law, they are
beyond the purview of this Court in a federal habeas proceeding. See Swarthout v. Cooke, 131 S.
Ct. 859, 863 (2011) (per curiam) (holding that it is of no federal concern whether state law was
correctly applied). It is a fundamental precept of dual federalism that the states possess primary
authority for defining and enforcing the criminal law. See, e.g., Estelle v. McGuire, 502 U.S. 62,
67-68 (1991) (a federal habeas court cannot reexamine a state court’s interpretation and
application of state law); Walton v. Arizona, 497 U.S. 639, 653 (1990) (presuming that the state
court knew and correctly applied state law), overruled on other grounds by Ring v. Arizona, 536
U.S. 584 (2002).
In applying these standards on habeas review, this Court reviews the “last reasoned
decision” by the state court. See Robinson v. Ignacio, 360 F.3d 1044, 1055 (9th Cir. 2004)
(citing Avila v. Galaza, 297 F.3d 911, 918 (9th Cir. 2002)). A summary denial is an adjudication
on the merits and entitled to deference. Harrington v. Richter, 562 U.S. 86, 99 (2011). Under
the AEDPA, the state court’s findings of fact are presumed to be correct unless the petitioner
rebuts this presumption by clear and convincing evidence. 28 U.S.C. § 2254(e)(1); Miller-El v.
Cockrell, 537 U.S. 322, 340 (2003).

11

APPENDIX B

Case 2:16-cv-01245-JKS Document 27 Filed 05/18/20 Page 12 of 34

IV. DISCUSSION
1.

Ineffective Assistance of Counsel–PTSD Expert Testimony (Ground 1)
Torres first faults trial counsel for failing to consult and retain an expert to opine that

Torres suffered from post-traumatic stress disorder (“PTSD”). At trial, Torres testified that he
had previously been jumped, robbed at gunpoint, and shot at by gang members, after which he
started carrying a gun for safety. According to Torres, a PTSD expert would have explained that
his past trauma from those experiences caused him to become hypervigilant such that he
believed the Nortenos would kill him.
To demonstrate ineffective assistance of counsel under Strickland v. Washington, a
defendant must show both that counsel’s performance was deficient and that the deficient
performance prejudiced his defense. 466 U.S. 668, 687 (1984). A deficient performance is one
in which “counsel made errors so serious that counsel was not functioning as the ‘counsel’
guaranteed by the Sixth Amendment.” Id.
The Supreme Court has explained that, if there is a reasonable probability that the
outcome might have been different as a result of a legal error, the defendant has established
prejudice and is entitled to relief. Lafler v. Cooper, 132 S. Ct. 1376, 1385-86 (2012); Glover v.
United States, 531 U.S. 198, 203-04 (2001); Williams, 529 U.S. at 393-95. Where a habeas
petition governed by AEDPA alleges ineffective assistance of counsel, the Strickland prejudice
standard is applied and federal courts do not engage in a separate analysis applying the Brecht
harmlessness standard. Avila v. Galaza, 297 F.3d 911, 918, n.7 (9th Cir. 2002); see also Musalin
v. Lamarque, 555 F.3d 830, 834 (9th Cir. 2009). Under this rubric, in reviewing ineffective
assistance of counsel claims in a federal habeas proceeding:

12

APPENDIX B

Case 2:16-cv-01245-JKS Document 27 Filed 05/18/20 Page 13 of 34

The question “is not whether a federal court believes the state court’s
determination” under the Strickland standard “was incorrect but whether that
determination was unreasonable—a substantially higher threshold.” And, because the
Strickland standard is a general standard, a state court has even more latitude to
reasonably determine that a defendant has not satisfied that standard.
Knowles v. Mirzayance, 556 U.S. 111, 123 (2009) (citations omitted); see also Runningeagle v.
Ryan, 686 F.3d 758, 775 (9th Cir. 2012).
Thus, Torres must show that his trial counsel’s representation was not within the range of
competence demanded of attorneys in criminal cases, and there is a reasonable probability that,
but for counsel’s ineffectiveness, the result would have been different. See Hill v. Lockhart, 474
U.S. 52, 57 (1985). An ineffective assistance of counsel claim should be denied if the petitioner
fails to make a sufficient showing under either of the Strickland prongs. See Strickland, 466
U.S. at 697 (courts may consider either prong of the test first and need not address both prongs if
the defendant fails on one).
The Ninth Circuit remains sensitive to the issue of retaining and consulting with defense
experts. See, e.g., Weeden v. Johnson, 854 F.3d 1063, 1070-71 (9th Cir. 2017) (holding that trial
counsel was deficient in failing to seek psychological evaluation about effect of petitioner’s
youth on her mental state); Richter v. Hickman, 578 F.3d 944, 953-54 (9th Cir. 2009) (en banc)
(trial counsel’s failure to consult an expert in blood evidence constituted ineffective assistance),
rev’d by Harrington v. Richter, 562 U.S. 86 (2011). The cases finding ineffective assistance
based on defense counsel’s failure to consult with an expert or offer expert testimony appear to
involve situations where the prospective defense expert testimony would: 1) exonerate the
defendant; 2) conflict with powerful expert testimony offered by the Government;

13

APPENDIX B

Case 2:16-cv-01245-JKS Document 27 Filed 05/18/20 Page 14 of 34

3) significantly weaken adverse Government expert testimony; and 4) aid in preparing defense
counsel’s cross-examination of the adverse Government expert testimony.
Here, however, Torres fails to show that counsel did not have a valid reason for pursing a
different defense strategy, or that the now-proffered PTSD testimony would have led to a better
outcome in his case. At trial, Torres testified that he fired his gun at in the air solely to scare the
victims and make them back away, and that he did not want to shoot anyone. Although that
theory ultimately proved unsuccessful with the jury, Torres fails to show that counsel’s reliance
on that theory was deficient, or that a theory based on PTSD testimony would have been
successful. As the superior court explained in rejecting this claim on habeas review:
Petitioner alleges that he admitted to shooting the victims at trial, and therefore
the only issue was his mental state at the time of the crime. However, this is simply
incorrect: Petitioner testified at trial that he shot into the air while running away, and
specifically that he did not shoot the victims. In the circumstances, it was not deficient
for Petitioner’s trial counsel to take Petitioner at his word and pursue a strategy aimed at
bolstering Petitioner’s claim. There was no reason for Petitioner’s trial counsel to have
pursued a PTSD-based defense when Petitioner unequivocally denied having shot the
victims.
The PTSD testimony Petitioner now alleges his trial counsel should have
presented would have undermined his defense that he made a conscious choice to shoot
in the air in order to try to scare off the victims without harming them; according to the
expert, those suffering from PTSD react instinctively to what they perceive as danger,
without conscious decision-making. Therefore, even if trial counsel had consulted with a
PTSD expert, there is no indication he would have used his testimony at trial, or altered
his trial testimony in any way. The choice of what strategy to pursue at trial is one for
trial counsel, and courts will not second-guess trial counsel’s reasonable tactical
decisions. Although Petitioner’s trial counsel declares he had no tactical reason for not
consulting a PTSD expert, he does not state that he would have used such testimony, or
explain how it could have bolstered Petitioner’s own testimony that he did not shoot the
victims. Petitioner and trial counsel chose to present a defense that Petitioner had not
shot the victims; that choice was a rational, tactical one that is not subject to judicial
second-guessing.

14

APPENDIX B

Case 2:16-cv-01245-JKS Document 27 Filed 05/18/20 Page 15 of 34

The California Superior Court’s conclusion is both reasonable and fully supported by the
record, which shows that Torres testified that he fired “[k]ind of in the air, to shoot in the air . . . .
[b]ecause I didn’t want to hit nobody. I didn’t want to shoot nobody.”
Moreover, it is notable that the trial court instructed the jury as to both self-defense,
which requires both a reasonable belief that the defendant was in imminent danger of being
killed or suffering great bodily injury and a reasonable belief that immediate use of deadly force
was necessary to avoid that danger, and imperfect self-defense, where the defendant actually
believes there is imminent danger that requires the immediate use of deadly force, but at least
one of those beliefs are unreasonable.5 Ortega asserted self-defense at trial. He testified that he
started shooting because he saw Padilla pull out his hand, and Ortega thought he was drawing a
gun. Ortega testified that he emptied his gun, and thought he fired seven rounds. In arguing
self-defense on summation, Ortega’s counsel asked the jury to think about Ortega –“his
background, what he heard, what he saw, and how he reacted, and why he reacted.”
Although Torres’ main defense was that he did not shoot directly at Padilla, defense
counsel also referred to self-defense on summation. Torres’ counsel argued that the jury should
assess Torres’ actions in light of the circumstances of that night, including the neighborhood
where the shooting occurred. He continued:
Now, the judge is not going to tell you that there’s a rule of law and that there’s a
requirement that you have to roll the dice before defending yourself. That’s not the law
in the United States. You don’t have to wait to be injured before you can resort to
violence. Understand, if you believe Mr. Torres’ testimony, and I–and his testimony was
believable, was that the minute he saw that reach, he started running and firing. Now,

5

Under California law, “[a] defendant who kills with this genuine but unreasonable
fear can be found guilty of no more than manslaughter.” Menedez v. Terhune, 422 F.3d 1012,
1023 (9th Cir. 2005).
15

APPENDIX B

Case 2:16-cv-01245-JKS Document 27 Filed 05/18/20 Page 16 of 34

what angle his arm was at, I don’t know. But he is certain, and I think you can be certain,
that he didn’t shoot towards those people.
Now, as to that–I’d like to paraphrase the actual instruction. And I’m
paraphrasing a little bit, but: Actual danger is not necessary to justify self-defense. If one
is confronted by the appearance of danger which arouses in his mind, as a reasonable
person, an actual belief and fear that he is about to suffer bodily injury, and if a
reasonable in a like situation, seeing and knowing the same facts, would be justified in
believing himself in danger, and that individual, so confronted, acts in self-defense upon
these appearances and from that fear and actually believes, the person’s right of selfdefense is the same whether the danger is real or merely apparent.
In his Traverse, Torres attaches a new declaration from the proposed PTSD expert, Dr.
Kevin Booker, dated March 20, 2017, after all habeas petitions in the state court had been
denied.6 Docket No. 21 at 43-45. In the declaration, Dr. Booker takes issue with Respondent’s
contention, based upon the superior court’s determination, that “because Torres fired his gun up
in the air, ‘all’ of his decision-making was under his conscious control.” Id. According to Dr.
Booker, “[a] person can engage in very specific and deliberate acts or actions while the fight
mechanism is activated; this doesn’t deem that behavior conscious or appropriate just because it
was initiated. . . . People can engage in fight or defensive behaviors while in a state of panic and

6

Although Torres did not present this declaration in his habeas petitions in the state
courts, “new factual allegations do not ordinarily render a claim unexhausted.” Beatty v.
Stewart, 303 F.3d 975, 989 (9th Cir.2002), cert. denied 538 U.S. 1053 (2003). A claim is
unexhausted only if new factual allegations “fundamentally alter the legal claim already
considered by the state courts.” Vasquez v. Hillery, 474 U.S. 254, 260 (1986). It is not
necessary that “every piece of evidence” supporting federal claims have been presented to the
state court. Chacon v. Wood, 36 F.3d 1459, 1469 n. 9 (9th Cir.1994), superceded by statute on
other grounds as stated in Hall v. Los Angeles, 697 F.3d 1059, 1070 (9th Cir. 2012). The
introduction of new evidence effects the fair presentation requirement when it “substantially
improves the evidentiary basis” for a petitioner’s claims. Aiken v. Spalding, 841 F.2d 881, 883
(9th Cir. 1988). New factual allegations that are merely cumulative of those presented to the
state court do not transform the claim and thus do not require exhaustion. Hillery v. Pulley, 533
F. Supp. 1189, 1200-02 (E.D.Cal. 1982), aff’d, 733 F.2d 644 (9th Cir. 1984), aff’d, 474 U.S. 254
(1986); see also Weaver v. Thompson, 197 F.3d 359, 364 (9th Cir. 1999) (acknowledging that
although the “precise factual predicate” for a claim had changed after the evidentiary hearing in
federal court, the claim remained rooted in the same incident and was therefore exhausted).
16

APPENDIX B

Case 2:16-cv-01245-JKS Document 27 Filed 05/18/20 Page 17 of 34

shock such that, after the fact, they have no clear recollection of what they actually did during
the fight. This is known as peri-traumatic amnesia.” Id.
Dr. Booker’s declaration raises the questions whether the state courts erred in denying
Torres’ ineffective assistance claim without holding an evidentiary hearing, and whether this
Court should hold an evidentiary hearing on federal habeas review. On one hand, because
Torres did not present this specific opinion to the state courts, one could argue that he failed to
develop the factual basis of the ineffective assistance claim in the state court proceedings, within
the meaning of § 2254(e)(2). Under that provision, a federal court cannot hold an evidentiary
hearing on the factual basis of a claim that was not developed in state court unless the applicant
shows that:
(A) the claim relies on –
(i) a new rule of constitutional law, made retroactive to cases on collateral review
by the Supreme Court, that was previously unavailable; or
(ii) a factual predicate that could not have been previously discovered through the
exercise of due diligence; and
(B) the facts underlying the claim would be sufficient to establish by clear and
convincing evidence that but for the constitutional error, no reasonable factfinder would
have found the applicant guilty of the underlying offense.
28 U.S.C. § 2254(e)(2).
Torres provides no reason to believe that the opinion is based on any information
developed after the habeas petitions were filed in the California Court of Appeal and the
California Supreme Court and, as discussed infra, the opinion is not sufficient to satisfy
§ 2254(e)(2)(B).
On the other hand, Torres’ state habeas petitions requested an evidentiary hearing, and
Dr. Booker’s proffered declaration is the type of evidence that could come out at such hearing.
Where the petitioner was prevented from developing the factual basis of his claim, however, he
17

APPENDIX B

Case 2:16-cv-01245-JKS Document 27 Filed 05/18/20 Page 18 of 34

must nonetheless make a colorable claim for relief to receive an evidentiary hearing in federal
habeas proceedings. To allege a colorable claim, the petitioner must allege facts that, if true,
would entitle him to habeas relief. West v. Ryan, 608 F.3d 477, 485 (9th Cir. 2010). Here,
however, the new allegation in Dr. Booker’s declaration (that Torres could intend to shoot away
but still involuntary shoot Padilla as a result of his PTSD) is insufficient to render the state
courts’ rejection of Torres’s ineffective assistance claim unreasonable because Torres fails to
show that, if counsel had presented this PTSD testimony and relied more heavily on a selfdefense theory, a better outcome was reasonably likely to result. See Strickland, 466 U.S. at 687
(requiring petitioner claiming ineffective assistance of counsel to show deficient performance
that prejudiced the defense).
As noted above, the jury was instructed on both self-defense and imperfect self-defense,
and defense counsel referred to self-defense in assessing Torres’ actions during the incident.
Torres also testified that he had previously been jumped, robbed at gunpoint, and shot at by gang
members, although he was not a gang member himself, which could have led the jury to believe
that Torres was hypervigilant, as Dr. Booker suggests. Torres fails to show a reasonable
likelihood that the addition of Dr. Booker’s opinion on these topics would have led the jury to
accept a defense theory that it otherwise rejected, and also rejected as to Ortega. Torres is
therefore not entitled to an evidentiary hearing on his ineffective assistance claim in any event,
and he is not entitled to relief on it either.

18

APPENDIX B

Case 2:16-cv-01245-JKS Document 27 Filed 05/18/20 Page 19 of 34

2.

Instructional Errors (Ground 2)
Torres next argues that the trial court committed two errors when instructing the jury.

Specifically, Torres avers that the trial court should have sua sponte instructed the jurors on
CALCRIM No. 640, which informs the jury of the process for deciding the lesser-included
offenses, and that Torres’s due process rights were violated by the court’s failure to specifically
include as an element of murder whether the defendant killed without lawful excuse or
justification.
Because jury instructions in state trials are typically matters of state law, federal courts
are bound by a state appellate court’s determination that a jury instruction was not warranted
under state law. See Bradshaw v. Richey, 546 U.S. 74, 76 (2005) (noting that the Supreme Court
has repeatedly held that “a state court’s interpretation of state law, including one announced on
direct appeal of the challenged conviction, binds a federal court sitting in habeas corpus.”); see
also Williams v. Calderon, 52 F.3d 1465, 1480-81 (9th Cir. 1995). An instructional error,
therefore, “does not alone raise a ground cognizable in a federal habeas proceeding.”
Dunckhurst v. Deeds, 859 F.2d 110, 114 (9th Cir. 1986) (citation omitted).
A challenged instruction violates the federal constitution if there is a “reasonable
likelihood that the jury has applied the challenged instruction in a way that prevents the
consideration of constitutionally relevant evidence.” Boyde v. California, 494 U.S. 370, 380
(1990). The question is whether the instruction, when read in the context of the jury charges as a
whole, is sufficiently erroneous to violate the Fourteenth Amendment. Francis v. Franklin, 471
U.S. 307, 309 (1985). This Court must also assume in the absence of evidence to the contrary
that the jury followed those instructions. Weeks v. Angelone, 528 U.S. 225, 234 (2000);

19

APPENDIX B

Case 2:16-cv-01245-JKS Document 27 Filed 05/18/20 Page 20 of 34

Richardson v. Marsh, 481 U.S. 200, 206 (1987) (noting the “almost invariable assumption of the
law that jurors follow their instructions”); see Francis, 471 U.S. at 323-24 & n.9 (discussing the
subject in depth).
It is well-established that not only must the challenged instruction be erroneous but it
must violate some constitutional right, and it may not be judged in artificial isolation but must be
considered in the context of the instructions as a whole and the trial record. Estelle, 502 U.S. at
72. This Court must also bear in mind that the Supreme Court has admonished that the inquiry is
whether there is a reasonable likelihood that the jury applied the challenged instruction in a way
that violates the constitution and that the category of infractions that violate “fundamental
fairness” is very narrowly drawn. Id. at 72-73. “Beyond the specific guarantees enumerated in
the Bill of Rights, the Due Process clause has limited operation.” Id.
The Due Process Clause of the Fourteenth Amendment requires the prosecution to prove
every element charged in a criminal offense beyond a reasonable doubt. See In re Winship, 397
U.S. 358, 364 (1970). “[T]he Constitution does not require that any particular form of words be
used in advising the jury of the government’s burden of proof. Rather, taken as a whole, the
instructions must correctly convey the concept of reasonable doubt to the jury.” Victor v.
Nebraska, 511 U.S. 1, 5 (1994). A federal habeas court “must determine whether there was a
reasonable likelihood that the jury understood the instruction to allow a conviction predicated on
proof that was insufficient to meet the requirements of due process.” Lisenbee v. Henry, 166
F.3d 997, 999 (9th Cir. 1999) (citing Ramirez v. Hatcher, 136 F.3d 1209, 1213 (9th Cir. 1998)).
The question is whether the instruction, when read in the context of the jury charges as a
whole, is sufficiently erroneous to violate the Fourteenth Amendment. Francis v. Franklin, 471

20

APPENDIX B

Case 2:16-cv-01245-JKS Document 27 Filed 05/18/20 Page 21 of 34

U.S. 307, 309 (1985). This Court must also assume in the absence of evidence to the contrary
that the jury followed those instructions. Weeks v. Angelone, 528 U.S. 225, 234 (2000);
Richardson v. Marsh, 481 U.S. 200, 206 (1987) (noting the “almost invariable assumption of the
law that jurors follow their instructions”); see Francis, 471 U.S. at 323-24 & n.9 (discussing the
subject in depth).
As an initial matter, Respondent urges the Court to find that Torres’s instructional error
claims are procedurally defaulted. As a general rule, a federal court will not review a claim if
the state court’s rejection of the claim rests on a state law ground that is independent of the
federal question and adequate to support the judgment. Coleman v. Thompson, 501 U.S. 722,
729-30 (1991). Here, the superior court found the underlying instructional error claim to be
barred because it could have been but was not raised on direct appeal. See In re Dixon, 264 P.2d
513, 514 (Cal. 1953) (“The general rule is that habeas corpus cannot serve as a substitute for an
appeal, and, in the absence of special circumstances constitu[t]ing an excuse for failure to
employ that remedy, the writ will not lie where the claimed error could have been, but were not,
raised upon a timely appeal from a judgment of conviction.”); see also In re Seaton, 95 P.3d 896,
901 n.4 (Cal. 2004) (“What we mean when we invoke the Dixon bar is that the claim is based on
the appellate record, and thus was fully cognizable on appeal insofar as it was preserved at
trial.”).
California’s Dixon bar has been upheld as an adequate and independent procedural
ground capable of barring federal habeas review. See Johnson v. Lee, 136 S. Ct. 1802, 1806
(2016). In any event, even if such bar did not exist, Torres is not entitled to relief on the merits
of his claims. On habeas review, the superior court considered the instructional error claims as

21

APPENDIX B

Case 2:16-cv-01245-JKS Document 27 Filed 05/18/20 Page 22 of 34

raising “ineffective assistance of appellate counsel claim, given that they could have been raised
on direct appeal.” Ex. 11 at 3 (citing In re Harris, 855 P.2d 391 (Cal. 1993)). The superior court
found the claims without merit for the following reasons:
Both of these claims fail because the trial judge instructed the jury that: “You
must decide whether the killing in this case was unlawful and, if so, what specific crime
was committed. I will now instruct you in more detail on what is a legally permissible
excuse or justification for homicide. I will also instruct you on the different types of
murder and manslaughter.” (Transcript at 1702.) The trial judge also instructed the jury
on the substantive elements of each possible lesser included offense. (Transcript at 17021712.) Even if it was error not to have provided more specific instructions either on
lesser included offenses or to have included the “killed without lawful excuse or
justification” portion of CALCRIM 520, any error was harmless because the jury would
have understood from these other instructions its duty to determine whether the killing
was unlawful, and its duty to determine what specific crime was committed. There is no
probability that more thorough instructions on either of these points would have led to
[Torres] obtaining a more favorable result absent the error. (See People v. Braverman
(1998) 19 Cal. 4th 142, 178.) Because neither of these instructional claims are
meritorious, appellate counsel’s failure to argue them on appeal was not ineffective
assistance of counsel. (See In re Richardson (2011) 196 Cal. App. 4th 647, 660.)
As previously mentioned, a claim of jury instruction error is likewise reviewed under a
harmless error standard on federal habeas review. Evanchyk v. Stewart, 340 F.3d 933, 940-41
(9th Cir. 2003). Habeas relief is only available where the error had a “substantial and injurious
effect or influence in determining the jury’s verdict” and resulted in “actual prejudice.” Brecht,
507 U.S. at 637; Hedgpeth v. Pulido, 555 U.S. 57, 61-62 (2008). The relevant question is
“whether the instructions as a whole are misleading or inadequate to guide the jury’s
deliberation.” United States v. Elofus, 598 F.3d 1171, 1174 (9th Cir. 2010).
On independent review, this Court likewise concludes that any instructional error was
harmless in light of the other jury instructions given. The Court of Appeal’s harmlessness
determination is both reasonable and fully supported by the record. Torres has not established
any likelihood that he was prejudiced by the given instructions or that the jury would have
22

APPENDIX B

Case 2:16-cv-01245-JKS Document 27 Filed 05/18/20 Page 23 of 34

reached a different verdict had it received the specific charge he now requests. Brecht, 507 U.S.
at 637. The Court thus finds no basis to believe that Torres’s conviction was the result of an
“extreme malfunction” of the state criminal justice system.” Harrington v. Richter, 562 U.S. 86,
102 (2011). Torres is not entitled to relief on his instructional error claim, and for the same
reasons, he fails to show that he was prejudiced by counsel’s failure to raise the instructional
errors on direct appeal. See Strickland, 466 U.S. at 687, 697 (to demonstrate ineffective
assistance of counsel, a defendant must show both that his counsel’s performance was deficient
and that the deficient performance prejudiced his defense; courts may consider either prong of
the test first and need not address both prongs if the defendant fails on one).
3.

Prosecutorial Misconduct (Ground 3)
Torres additionally contends that the prosecutor committed misconduct by implying in

summation that Torres had told a different story to police when he was interviewed on the day of
the incident than the story he testified to at trial. Torres raised this claim on direct appeal, and
the Court of Appeal laid out the following facts underlying this claim:
During closing, the prosecution argued, “Let’s take some of the defense
witnesses, and we’re going to view all of them with the same critical eye. [¶] Who has a
motive to lie in this case? Who had the time to, quote, backfill their story, as Dr. Shomer
told you. Well, I don’t know. The defendants had two years to do that, because they
surely didn’t tell this version of the story that you heard to the police when they were
interviewed on the day of the crime . . . .” Torres’s counsel and Vidrio’s counsel each
objected without stating a reason, and the trial court overruled the objections. The trial
court overruled two additional objections from Vidrio’s counsel—“[m]isstates [sic] facts
not in evidence” and “[p]rosecutorial misconduct”—and denied a request from Vidrio’s
counsel for a limiting instruction. The prosecutor continued, “So you take into
consideration who was telling you the truth and who had motive to not tell you the truth.
The defendants are the only ones that had a motive to not tell you the truth. They’re on
trial there. They had two years to think about what they were going to say, two years to
look over the evidence and make decisions on what they were going to tell you.”
Torres, 2014 WL 7151567, at *10.
23

APPENDIX B

Case 2:16-cv-01245-JKS Document 27 Filed 05/18/20 Page 24 of 34

Torres argues, as he did on direct appeal, that, because no evidence was presented to the
jury that he had even spoken to the police, the prosecutor committed misconduct by implying
that he had told a different story when he was interviewed on the day of the incident. Federal
habeas review of prosecutorial misconduct claims is limited to the narrow issue of whether the
alleged misconduct violated due process. See Darden v. Wainwright, 477 U.S. 168, 181 (1986).
To prevail on such a claim, a petitioner must show that the prosecutor’s conduct “so infected the
trial with unfairness as to make the resulting conviction a denial of due process.” Donnelly v.
DeChristoforo, 416 U.S. 637, 643 (1974). Moreover, “[o]n habeas review, constitutional errors
of the ‘trial type,’ including prosecutorial misconduct, warrant relief only if they ‘had substantial
and injurious effect or influence in determining the jury’s verdict.’” Wood v. Ryan, 693 F.3d
1104, 1113 (9th Cir. 2012) (quoting Brecht, 507 U.S. at 637-38 (1993)).
Under clearly established federal law, a prosecutor’s incorrect and improper comments
will be held to violate the Constitution only if they “so infected the trial with unfairness as to
make the resulting conviction a denial of due process.” Parker v. Matthews, 132 S. Ct. 2148,
2153 (2012) (per curiam) (quoting Darden v. Wainright, 477 U.S. 168, 181 (1986)); see
Sassounian v. Roe, 230 F.3d 1097, 1106 (9th Cir. 2000). In determining whether the
prosecutor’s remarks rendered a trial fundamentally unfair, the remarks must be analyzed in the
context of the entire proceeding. Boyde, 494 U.S. at 385; Darden, 477 U.S. at 179-182. Even
when prosecutorial misconduct rises to the level of a due process violation, such misconduct
provides grounds for habeas relief only if that misconduct is prejudicial under the harmless error
test articulated in Brecht v. Abrahamson, 507 U.S. 619, 637-638 (1993). Shaw v. Terhune, 380
F.3d 473, 478 (9th Cir. 2004).

24

APPENDIX B

Case 2:16-cv-01245-JKS Document 27 Filed 05/18/20 Page 25 of 34

Torres fails to satisfy these heavy burdens. As the Court of Appeal explained in rejecting
this claim on direct appeal:
As noted, “a court should not lightly infer that a prosecutor intends an ambiguous
remark to have its most damaging meaning or that a jury, sitting through lengthy
exhortation, will draw that meaning from the plethora of less damaging interpretations.”
(Donnelly v. DeChristoforo, supra, 416 U.S. at p. 647.) Here, the prosecutor’s
undifferentiated reference to “the defendants” was ambiguous. It could have meant two
of the defendants, or all three. The trial court properly instructed the jury to decide the
facts based only on the evidence, which the court defined to specifically exclude anything
the attorneys said in their closing arguments. Having heard only evidence of Ortega and
Vidrio being interviewed on the day of the crime, and having heard no evidence that
Torres was ever interviewed, a reasonable jury would have determined that the
prosecutor was referring only to Ortega and Vidrio, and not Torres.
The record supports a conclusion that the jury would have been particularly likely
to interpret the prosecutor’s argument to refer only to Ortega and Vidrio because, after
arguing “the defendants” told the police a different story from what they said at trial, the
prosecutor explained, “Mr. Ortega never tells the police that he was acting in self
defense. [¶] Mr. Vidrio never tells the police that he’s just out for a ride . . . .” She made
no mention of Torres as having spoken to the police, thereby suggesting that it was
Ortega and Vidrio, and not Torres, to whom the prosecutor was referring when she said
“the defendants.” In addition, the trial court instructed in one of its jury instructions:
“You have heard evidence that defendants Rudolfo Ortega and Jesus Vidrio made
statements before trial. You may consider that evidence only against the defendant who
made the statement and not against any other defendant.” (Italics added.) Another jury
instruction stated in part: “If the defendants Rudolfo Ortega and/or Jesus Vidrio made a
false or misleading statement before this trial . . . knowing the statement was false or
intending to mislead, that conduct may show he was aware of his guilt of the crime and
you may consider it in determining his guilt. You may not consider the statement in
deciding any other defendant’s guilt . . . .” Those instructions also assisted the jury in
reasonably determining that the statements to which the prosecutor referred must have
been statements made by Ortega and Vidrio, and not Torres.
Moreover, any error was harmless under any standard because the evidence
refuted Torres’s claim of self-defense as overwhelmingly as it did Ortega’s. Torres
accompanied his housemate, a known Sureño gang member, to a Norteño area in
Vacaville, carrying a loaded gun, yet claimed he did not think there would be a fight or a
confrontation. He believed they were there merely to “pick up” Guizar, and that he did
not realize Ortega was armed. Torres testified that he began shooting only after he had
his back turned and heard a gunshot, and thought it was Padilla who was shooting. He
testified that he shot in the air, but there was evidence that multiple bullets from the gun
that he admitted he carried with him that day were found in areas, including the grill of a
car, that the bullets would not have gone into if they had been fired into the air. Given

25

APPENDIX B

Case 2:16-cv-01245-JKS Document 27 Filed 05/18/20 Page 26 of 34

these incongruities, and the overwhelming evidence against him, any error would have
been harmless beyond a reasonable doubt.
Id. at 10-11.
The Court of Appeal’s conclusion is both reasonable and fully supported by the record.
It does not contravene, or unreasonably apply, clearly-established federal law, and Torres is not
entitled to relief on this ground.
4.

Evidentiary Error (Ground 4)
Torres also claims that the trial court violated his right to due process when it excluded

from trial evidence that R.E. possessed a gun on two dates after the offenses at issue. The Court
of Appeal considered and rejected this claim on direct appeal as follows:
We conclude there was no error because the proffered evidence was not relevant.
Appellants assert that the proffered evidence could have assisted the defense in
demonstrating that they believed that one of the three individuals—Padilla, K.H., or
R.E.—had a gun, and that they therefore reasonably acted in self-defense. Ortega relies
on People v. Shoemaker (1982) 135 Cal. App. 3d 442, but that case refutes appellants’
claim. The court in that case stated, “Character at an earlier or later time than that of the
deed in question is relevant only on the assumption that it was substantially unchanged in
the meantime, i.e. the offer is really of character at one period to prove character at
another, and the real question is of relevancy of this evidence to prove character, not of
the character to prove the act.” (Id. at p. 447, italics added.) Here, the proffered
evidence showed at most that R.E. was “a gun carrying gang member” in 2011 and 2012,
after the charged crimes. R.E.’s father reported to probation after the incident, “even
though I didn’t lose my son, I lost my son,” referring to how R.E.’s personality, outlook
on life, and behavior, had changed after the incident in which he was shot and severely
injured by appellants, at least one of whom was a Sureño. The proffered evidence
showed nothing more than that R.E. had become “a gun carrying gang member” by 2011
and 2012, not that he was more likely to have been one at the time of the shooting in
2010. In other words, the evidence was irrelevant because the defense failed to show that
R.E.’s character was “substantially unchanged” after—or by—the shooting. (Id. at p.
445.)
Even assuming the evidence had some relevance, we would conclude it was only
minimally relevant, and agree with the trial court that any probative value was far
outweighed by its potential for confusing the jury and consuming time as the parties
would have had to adjudicate the facts of the subsequent events. Accordingly, the trial
court did not abuse its discretion in excluding the evidence as substantially more
26

APPENDIX B

Case 2:16-cv-01245-JKS Document 27 Filed 05/18/20 Page 27 of 34

prejudicial than probative. (See EVID. CODE, § 352.) Because there was no error under
state law, appellants’ constitutional claims also fail. (See People v. Linton (2013) 56 Cal.
4th 1146, 1202.) Finally, we conclude that any error was harmless because, as stated
above, there was overwhelming evidence that appellants did not act in self-defense.
Torres, 2014 WL 7151567, at *11-12.
Torres fares no better on federal habeas review. It is well-settled that, under the Sixth
Amendment, an accused has the right to present witnesses, testimony and other evidence in his
defense. See Washington v. Texas, 388 U.S. 14, 19 (1967). However, “[t]he accused does not
have an unfettered right to offer testimony that is incompetent, privileged, or otherwise
inadmissible under standard rules of evidence.” Taylor v. Illinois, 484 U.S. 400, 409-10 (1988).
States have considerable latitude under the Constitution to establish rules excluding evidence
from criminal trials. Holmes v. S. Carolina, 547 U.S. 319, 324 (2006). “Thus, a trial judge may
exclude or limit evidence to prevent excessive consumption of time, undue prejudice, confusion
of the issues, or misleading the jury. The trial judge enjoys broad latitude in this regard, so long
as the rulings are not arbitrary or disproportionate.” Menendez v. Terhune, 422 F.3d 1012, 1033
(9th Cir. 2005) (citations omitted); see Montana v. Egelhoff, 518 U.S. 37, 42-43 (1996) (holding
due process rights are not violated by exclusion of relevant evidence where probative value is
outweighed by danger of prejudice or confusion).
Under these guidelines, this Court cannot find that the trial court’s denial of Torres’s
request was an abuse of discretion or unreasonable or contrary to federal law. As an initial
matter, the Supreme Court has not yet “squarely addressed” whether a state court’s discretionary
exclusion of evidence can ever violate a defendant’s right to present a defense. See Moses v.
Payne, 555 F.3d 742, 758-59 (9th Cir. 2008) (considering challenge to state evidentiary rule
allowing discretionary exclusion of expert testimony favorable to defendant); see also Brown v.
27

APPENDIX B

Case 2:16-cv-01245-JKS Document 27 Filed 05/18/20 Page 28 of 34

Horell, 644 F.3d 969, 983 (9th Cir. 2011) (noting that no Supreme Court case has squarely
addressed this issue since Moses). Thus, the state court’s decision could not have contravened
clearly established federal law under AEDPA. Id.; see Wright v. Van Patten, 552 U.S. 120, 12526 (2008).
Moreover, to the extent that clearly established federal law is implicated by such a claim,
federal law requires that a petitioner demonstrate that the trial court excluded “trustworthy and
necessary exculpatory testimony.” Cudjo v. Ayers, 698 F.3d 752, 754 (9th Cir. 2012) (citing
Chambers v. Mississippi, 410 U.S. 284, 300-01 (1973). A petitioner must show that the thirdparty evidence was “inconsistent with” and “raise[d] a reasonable doubt of” his guilt. Holmes,
547 U.S. at 327. Torres fails to meet this standard as the excluded evidence did not tend to prove
or disprove a material fact in issue at his trial.
Finally, the trial court acted well within its discretion and within the bounds of the
Confrontation Clause in determining that the limited probative value of the evidence was
outweighed by the undue consumption of time that the presentation of such evidence would
require as well as the danger of confusion to the jury. See United States v. Scheffer, 523 U.S.
303, 314 (1998) (noting that “collateral litigation prolongs criminal trials and threatens to
distract the jury from its central function of determining guilt or innocence”). The trial court
properly determined that evidence of R.E.’s subsequent gun possession did not have sufficient
bearing on R.E.’s character at the time of the shooting in 2010. For the foregoing reasons,
Torres is not entitled to relief on this claim.

28

APPENDIX B

Case 2:16-cv-01245-JKS Document 27 Filed 05/18/20 Page 29 of 34

5.

Cumulative Error (Ground 5)
Torres further contends that the cumulative effect of the errors enumerated in Grounds 1

through 4, supra, warrant reversal of his conviction. The Ninth Circuit has stated “[t]he
Supreme Court has clearly established that the combined effect of multiple trial court errors
violates due process where it renders the resulting trial fundamentally unfair.” Parle v. Runnels,
505 F.3d 922, 927 (9th Cir. 2007) (citing Chambers v. Mississippi, 410 U.S. 284, 298 (1973));
see also Whelchel v. Washington, 232 F.3d 1197, 1212 (9th Cir. 2000). “Cumulative error
applies where, although no single trial error examined in isolation is sufficiently prejudicial to
warrant reversal, the cumulative effect of multiple errors has still prejudiced a defendant.”
Jackson v. Brown, 513 F.3d 1057, 1085 (9th Cir. 2008) (quoting Whelchel v. Washington, 232
F.3d 1197, 1212 (9th Cir. 2000)). Where “there are a number of errors at trial, ‘a balkanized,
issue-by-issue harmless error review’ is far less effective than analyzing the overall effect of all
the errors in the context of the evidence introduced at trial against the defendant.” United States
v. Frederick, 78 F.3d 1370, 1381 (9th Cir. 1996) (quoting United States v. Wallace, 848 F.2d
1464, 1476 (9th Cir. 1988)).
“While the combined effect of multiple errors may violate due process even when no
single error amounts to a constitutional violation or requires reversal, habeas relief is warranted
only where the errors infect a trial with unfairness.” Peyton v. Cullen, 658 F.3d 890, 896-97 (9th
Cir. 2011) (citing Chambers, 410 U.S. at 298, 302-03). Such “infection” occurs where the
combined effect of the errors had a “substantial and injurious effect or influence in determining
the jury’s verdict.” Brecht v. Abrahamson, 507 U.S. 619, 623 (1993) (citation omitted). In other
words, where the combined effect of individually harmless errors renders a criminal defense “far

29

APPENDIX B

Case 2:16-cv-01245-JKS Document 27 Filed 05/18/20 Page 30 of 34

less persuasive than it might [otherwise] have been,” the resulting conviction violates due
process. See Chambers, 410 U.S. at 294.
As discussed throughout this opinion, Torres does not demonstrate federal constitutional
errors that would establish prejudice in the aggregate. See, e.g., Hayes v. Ayers, 632 F.3d 500,
524 (9th Cir. 2011) (“Because we conclude that no error of constitutional magnitude occurred,
no cumulative prejudice is possible.”). Torres is therefore not entitled to relief on this claim.
6.

Sentencing–Cruel and Unusual Punishment/Ineffective Assistance (Grounds 6, 7)
Finally, Torres challenges the legality of his sentence and faults trial counsel for failing

to object to it as cruel and unusual punishment in light of his relative youth at the time of the
crimes, and the facts that he did not intend to kill and had no prior criminal convictions. The
Eighth Amendment, applicable to the States through the Fourteenth Amendment, proscribes the
infliction of “cruel and unusual punishments.” U.S. CONST. amend. VIII; Kennedy v. Louisiana,
554 U.S. 407, 419 (2008). In determining whether to infer gross disproportionality, a federal
court should examine whether a petitioner’s sentence is justified by the gravity of his triggering
offense and his criminal history, a process similar to the three-pronged approach employed by
California state courts. See Ramirez v. Castro, 365 F.3d 755, 768 (9th Cir. 2004). Where the
crime is murder, even a life sentence without parole is not grossly disproportionate. See Harris
v. Wright, 93 F.3d 581, 584 (9th Cir. 1996) (life imprisonment without possibility of parole for
aggravated first-degree murder raises no inference of gross disproportionality); United States v.
LaFleur, 971 F.2d 200, 211 (9th Cir. 1991) (“Under Harmelin [v. Michigan, 501 U.S. 957
(1991)], it is clear that a mandatory life sentence for murder does not constitute cruel and
unusual punishment.”). Furthermore, while the contours of the “gross disproportionality

30

APPENDIX B

Case 2:16-cv-01245-JKS Document 27 Filed 05/18/20 Page 31 of 34

principle” have been called “unclear,” the principle is applicable only in the “exceedingly rare”
and “extreme” case. Lockyer v. Andrade, 538 U.S. 63, 72-73 (2003); see also Rummel v. Estelle,
445 U.S. 263, 272 (1980) (“Outside the context of capital punishment, successful challenges to
the proportionality of particular sentences have been exceedingly rare.”).
Within the last several years the United States Supreme Court has considered a number
of Eighth Amendment cases involving juvenile offenders, that is, defendants who were under the
age of 18 at the time they committed their offenses. In Roper v. Simmons, 543 U.S. 551, 575
(2005), the Supreme Court held that “the death penalty is disproportionate punishment for
offenders under 18.” The Supreme Court subsequently held in Graham v. Florida, 560 U.S. 48,
75 (2010), that “[t]he Constitution prohibits the imposition of a life without parole sentence on a
juvenile offender who did not commit homicide.” In Miller v. Alabama, 567 U.S. 460, 476
(2012), a case involving a juvenile who was 14 years old at the time he committed a murder, the
Supreme Court held that a mandatory sentence of life without the possibility of parole violates
the Eighth Amendment where a sentencing court has no discretion to consider the defendant’s
youth or other “mitigating qualities.”
Although Torres stresses his young age at the time of the crimes,7 the fact remains that he
was legally an adult when he engaged in a felony that resulted in murder. The state appellate

7

The record is not clear as to Torres’s age at the time of the crimes. His petition
states that he was 19 years old, while the Court of Appeal’s opinion refers to his age as 20.
Regardless, it is indisputable that Torres was legally an adult when he committed these crimes.
31

APPENDIX B

Case 2:16-cv-01245-JKS Document 27 Filed 05/18/20 Page 32 of 34

court’s decision therefore does not run afoul of Miller. Moreover, he was not sentenced to the
death penalty or life without parole (“LWOP”).8
In support of his claim, Torres cites California cases in which the California Supreme
Court held that potential life sentences imposed on youthful offenders (i.e., sentences where the
defendant will not be eligible for parole within their life expectancy) constitutes cruel and
unusual punishment. Petition at 62. However, in light of the applicable United States Supreme
Court authority, it was not unreasonable for the state court to conclude that neither Torres’ lack
of intent or criminal history, nor his age at the time of the offense, rendered his sentence
disproportionate to her crimes. See Harmelin, 501 U.S. at 1004 (Kennedy, J., concurring)
(stating that “no sentence of imprisonment would be disproportionate” for the crime of felony
murder even though it does not require the specific intent to kill (quoting Solem v. Helm, 463
U.S. 277, 290 n.15 (1983))); see also Martinez v. Duffy, No C-13-5014, 2014 WL 547594, *1-2
(N.D. Cal. Feb. 7, 2014) (finding that a sentence of 25 years to life for murder as an aider and
abettor committed when the petitioner was 17 years old was not cruel and unusual and thus
concluding that a state court decision to that effect did not warrant relief pursuant to § 2254(d));
Khalifa v. Cash, No. ED CV 10-1446, 2012 WL 1901934, at *30-33 (C.D. Cal. Apr 10, 2012)
(finding that a sentence of 25 years to life for first degree murder did not violate the Eighth
Amendment where the petitioner was 15 years old at the time of his offense and was not the

8

Even if Torres’s lengthy sentence could be considered the functional equivalent
of LWOP, see Moore v. Biter, 715 F.3d 1184, 1191-92 (9th Cir. 2013), he is nonetheless not
entitled to relief because the U.S. Supreme Court has not clearly-established that LWOP
sentences are unconstitutional for adult offenders who commit violent crimes; indeed, as
discussed supra, has upheld the constitutionality of such sentences where the crime is murder.
See Harmelin, 501 U.S. at 957.
32

APPENDIX B

Case 2:16-cv-01245-JKS Document 27 Filed 05/18/20 Page 33 of 34

actual murderer but was only a lookout for the underlying felony which resulted in a murder),
report and recommendation adopted, 2012 WL 1901932 (C.D. Cal. May 24, 2012)).
Nor can Torres demonstrate that his is one of the exceedingly rare cases in which the
sentence imposed raises an inference of gross disproportionality when compared to the crime and
relevant criminal history. As the Court of Appeal explained:
Torres notes only the factors arguably in his favor: that he was 20 years old at the
time of the crimes, did not intend to kill, and had no previous criminal convictions. He
fails to mention that there was ample evidence that the shootings were a planned,
surprised attack that killed one teenager, severely wounded another, and narrowly
avoided injuring a third. There was evidence that Torres fired his gun approximately ten
times, and not in the air as he claimed he had done. Given the severity of the injuries and
death he caused, and the further injuries he could have caused, a de facto sentence of life
without parole is not grossly disproportionate to his culpability.
Torres, 2014 WL 7151567, at *12.
In short, the Court of Appeal’s finding that the trial court’s sentence was not grossly
disproportionate to the crimes for which Torres was convicted in light of the circumstances of
the instant offense was not contrary to, or an objectively unreasonable application of, any clearly
established federal law and was not based upon an unreasonable determination of the facts in
light of the evidence presented. Accordingly, Torres is not entitled to habeas relief on his Eighth
Amendment claim.
V. CONCLUSION AND ORDER
Torres is not entitled to relief on any ground raised in his Petition.
IT IS THEREFORE ORDERED THAT the Petition under 28 U.S.C. § 2254 for Writ
of Habeas Corpus is DENIED.
IT IS FURTHER ORDERED THAT the Court declines to issue a Certificate of
Appealability. See 28 U.S.C. § 2253(c); Banks v. Dretke, 540 U.S. 668, 705 (2004) (“To obtain
33

APPENDIX B

Case 2:16-cv-01245-JKS Document 27 Filed 05/18/20 Page 34 of 34

a certificate of appealability, a prisoner must ‘demonstrat[e] that jurists of reason could disagree
with the district court’s resolution of his constitutional claims or that jurists could conclude the
issues presented are adequate to deserve encouragement to proceed further.’” (quoting Miller-El,
537 U.S. at 327)). Any further request for a Certificate of Appealability must be addressed to the
Ninth Circuit Court of Appeals. See FED. R. APP. P. 22(b); 9TH CIR. R. 22-1.
The Clerk of the Court is to enter judgment accordingly.
Dated: May 18, 2020.
/s/James K. Singleton, Jr.
JAMES K. SINGLETON, JR.
Senior United States District Judge

34

APPENDIX B

APPENDIX C

Filed 12/16/14 P. v. Torres CA1/3

NOT TO BE PUBLISHED IN OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on opinions not certified for
publication or ordered published, except as specified by rule 8.1115(b). This opinion has not been certified for publication
or ordered published for purposes of rule 8.1115.

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION THREE

THE PEOPLE,
A136219

Plaintiff and Respondent,
v.

(Solano County
Super. Ct. No. FCR274440)

ADRIAN TORRES,
Defendant and Appellant.
THE PEOPLE,
Plaintiff and Respondent,
v.
RUDOLFO RAYMOND ORTEGA, JR.,
Defendant and Appellant.

A136232
(Solano County
Super. Ct. No. FCR274439)

This is a criminal appeal following a jury trial in which Adrian Torres (Torres) and
Rudolfo Raymond Ortega, Jr., (Ortega) (together, appellants) were each found guilty of
second degree murder, attempted murder, and assault with a firearm. On appeal, they
contend: (1) the trial court violated Ortega’s constitutional rights by allowing the
prosecutor to question him—and comment—on his silence and failure to claim selfdefense before trial; (2) the prosecutor committed misconduct by questioning Ortega and
commenting on his failure to claim self-defense, by disparaging defense counsel, and by
arguing in closing that what Torres told police upon arrest was inconsistent with his
testimony at trial; (3) the trial court erred by excluding evidence that one of the victims
who survived was subsequently found in possession of a firearm; and (4) Torres’s

1

APPENDIX C

sentence of 86 years 4 months constitutes cruel and unusual punishment. We reject the
contentions and affirm the judgment.
FACTUAL AND PROCEDURAL BACKGROUND
On October 13, 2010, an information was filed alleging that on or about March 5,
2010, appellants and Jesus Antonio Vidrio (Vidrio) committed: (1) murder (Pen. Code1,
§ 187, subd. (a), count 1); attempted murder (§§ 664/187, subd. (a), count 2); and assault
with a semiautomatic firearm (§ 245, subd. (b), count 3). The information alleged as to
counts one and two that appellants and Vidrio personally and intentionally discharged a
firearm that proximately caused great bodily injury or death (§ 12022.53, subd. (d)) and
that the offenses were committed for the benefit—and at the direction—of a criminal
street gang (§ 186.22, subd. (b)(1)). The information charged as to count three that
appellants personally used a firearm (§§ 12022.5, subds. (a), (d), 1192.7, subd. (c)). The
fourth count charged Vidrio alone with evading an officer with willful disregard while
driving (Veh. Code, § 2800.2, subd. (a)), and included a criminal street gang allegation
(§ 186.22, subd. (b)(1)).
After a jury trial, the jury acquitted appellants of first degree murder and convicted
them of second degree murder, attempted murder, and assault with a firearm. The jury
found true the weapons allegations in counts one to three but found the gang allegations
untrue. Vidrio was acquitted of all crimes in counts one to three but was convicted in
count four for evading an officer with willful disregard while driving. Vidrio was
sentenced to the upper term of three years. The trial court sentenced Ortega to a total
determinate term of 21 years and four months and a total indeterminate term of 65 years
to life. In count one, Ortega received 15 years to life for the murder plus 25 years to life
for the gun use. In count two, he received two years and four months (one-third the
middle term) for the attempted murder and 25 years to life for the gun use. In count
three, he received the upper term of nine years plus 10 years for the gun use. He received

1

All further statutory references are to the Penal Code unless otherwise stated.
2

APPENDIX C

total credits of 881 days. The trial court imposed the same sentence on Torres and
awarded him total credits of 882 days.
The information was based on an incident that occurred on March 5, 2010. That
afternoon, then-17-year-old Humberto “Beto” Padilla (Padilla) and his mother’s
boyfriend, Alton Johnson, went to Alex Guizar’s grandmother’s house “down the street”
so that Padilla and Guizar “could straighten out whatever differences they were having in
school.” Padilla did not go there intending to fight Guizar and Johnson did not think
there would be a fight. Johnson was a longtime friend of Guizar’s family and had known
Guizar for Guizar’s entire life. Johnson accompanied Padilla to the grandmother’s house
“[j]ust to make sure that everything goes okay.” At some point, the discussion between
Padilla and Guizar turned into a one-on-one fist fight between them that “looked even” to
Johnson. Padilla and Johnson returned home, and later that day, Padilla went out. Some
testimony was presented that Padilla was a Norteño gang associate, and that the fight was
over Guizar having contact with relatives who were Sureños.2
At about 6:30 p.m. that evening, Padilla was with K.W. and R.E.,3 standing
outside of a friend’s house, waiting for the friend to finish showering and get ready so
they could all go out together. As they waited, they had a discussion about the fight
Padilla had with Guizar earlier that day. Padilla was upset because he had called K.W.
and a friend to come and back him up in the fight, but the two had failed to get there in
time.
K.W. then saw two men walk by. The individuals, who were wearing black
clothing and beanies, seemed friendly, but Padilla and R.E. appeared to be suspicious of
them because they did not recognize them. R.E. said, “Yo, who’s that? We don’t know
them,” or may have possibly said, “They’re not from here.” As the two men approached,

2

Although a great deal of evidence was presented at trial relating to the gang
charges, we omit most of that evidence from our facts because the jury found the gang
allegations untrue.
3
We will identify the living victims who were minors by their initials to protect
their anonymity.
3

APPENDIX C

Padilla and R.E., who had been sitting down, got up to greet them. The bigger of the two
men4 asked, “Hey, you all Norte?” or “you all north bay?”5 R.E. replied, “Yeah, Rocky
Hill Posse”—a reference K.H. did not understand, but was a reference to the Norteño
gang—and then “dapped” the man’s hand as a form of handshake. At that point, the two
men stepped back, each pulled out a handgun, and began firing at Padilla, R.E., and K.W.
When asked whether he saw Padilla quickly pull his hand out of his pocket, K.H.
testified that he “might have,” but that he did not see this occur. K.H. testified that for
the most part the shooters were aiming at Padilla, although some shots hit the side of a
house and one hit R.E. Padilla was shot in the upper left side of his back and his right
buttock, and died at the hospital from gunshot wounds. Both bullets exited the body and
it was not possible to tell the caliber of the bullets that caused the wounds. R.E., who was
15 years old at the time, was shot in the buttock. R.E. suffered a puncture wound in his
pelvis and a wound on his buttock, consistent with gunshot wounds. He was hospitalized
for five days and underwent surgery in which part of his bowel was removed and a hole
in his ureter, a tube connecting the kidney to the bladder, was repaired.
K.H. testified that he was not armed that day and did not see either Padilla or R.E.
with any weapons. He testified that he ran from the scene with R.E. after the shooting
and helped him to R.E.’s grandmother’s house. At that point, R.E. said, “I’ll be all right.
Get out of here.” As K.W. went back toward the scene of the shooting to see how Padilla
was doing, he saw that police and medical personnel had already arrived. K.W. went
home because he did not want to be involved with the police. He was also worried the
shooters might have accomplices in the area, and he was afraid of having to become a
witness in the case. At trial, K.W. identified Torres and Vidrio as the shooters. He
4

When K.H. spoke with police, he stated that the shorter of the two men spoke.
Police described Ortega as 5’6” tall, and Torres as 5’9” tall and heavier.
5
K.W. told police that the man asked, “you all north bay?” At trial, K.W.
explained that he did not know what “Norte” meant at the time, as he was relatively new
to the area and uninformed about gangs. He learned after the shooting that the incident
may have been gang related and that R.E. was a Norteño. K.W. testified that Padilla was
not a Norteño.
4

APPENDIX C

acknowledged he did not identify either of them when asked by police shortly after the
incident. He testified he was about 85 percent certain that Torres and Vidrio were the
shooters.
A resident of the Rocky Hill neighborhood testified that at about 7:40 p.m. on
March 5, 2010, he was at home playing with his children when he heard gunshots and
saw two men unloading two guns. The resident ran after the men as they ran up a hill and
got into a white car with tinted windows that was parked almost a block away from where
the men had been shooting. Later, the police showed the resident a car, which the
resident positively identified as the white car that the men jumped into at the scene of the
shooting.
Vacaville Police Officer Stuart Tan, who was on duty in an undercover capacity
on the evening of March 5, 2010, testified that he heard 10 to 15 gunshots from two
different guns as he walked to his unmarked vehicle. He then heard a dispatch call that
there had been a shooting, and that the suspect vehicle was a white Chevy Impala (the
Impala) with tinted windows. Tan drove to an onramp to Highway 80 looking for a car
that matched the description. When he saw the Impala go by in the fast lane of the
freeway, Tan merged onto the freeway to catch up to it, get a license plate, and see who
was inside. Tan saw three individuals in the car. Tan’s car was not equipped with
emergency lights or equipment so he was unable to pull the Impala over, but he watched
as marked patrol vehicles caught up. The patrol vehicles and the Impala all exited the
freeway at the Airbase Parkway exit. The Impala drove at least 45 miles per hour
through a residential neighborhood before crashing into a small retaining wall at the side
of a house.
The occupants ran off. The rear-seat passenger, who was identified as Torres, did
not obey commands to stop and continued to fight after police caught up with him, but
was eventually subdued and handcuffed. A loaded magazine was found in the Impala
where Torres had been sitting; no weapons were found on him. The front seat passenger,
identified as Ortega, was found in a garbage can with the assistance of a canine. Next to

5

APPENDIX C

him in the garbage can was a black hooded sweatshirt. The driver of the Impala,
identified as Vidrio, was also stopped and a search of his person revealed no weapons.
Police searched the Impala and found a black wool ski mask in the passenger door,
two sets of gloves and two cell phones, and a magazine for a .9mm firearm with four
bullets in it. Police found a magazine for a .9mm Taurus handgun with 12 rounds in it in
the front yard where the Impala crashed.
Vacaville police officers testified that bullet casings were scattered along the
sidewalk at the scene of the shootings—.9mm and .45 caliber casings from two different
semi-automatic weapons. An expert in ballistics and crime scene analysis testified that
the .9mm cartridge casings were fired from the Taurus .9mm semi-automatic pistol that
was recovered. No firearm was available with which to compare the .45 caliber bullets
that had been fired. An expert in gunshot residue received samples from the two sets of
gloves that were found in the Impala and concluded there were particles of gunshot
residue on both sets. DNA evidence established that Torres and Ortega had worn the
gloves.
Ortega, who was 21 years old at the time of the incident, testified that he joined a
Sureño gang when he was 13 years old and in foster care, and that his nickname was
“Drifter” because he was always in a different home. In March 2010, he was living with
Torres because he had nowhere else to live. Torres was not a gang member. Ortega
testified that on March 5, 2010, he received a call from his cousin, Guizar, who was
crying and said he had been beaten up and jumped by Norteños. Guizar told Ortega that
he was being threatened by Norteños and that he wanted Ortega to come and get him out
of the Rocky Hill neighborhood. After receiving the call, Ortega called Vidrio and told
him to come pick him up. He also asked Torres to join him and Vidrio. Ortega testified
that he asked Torres to come along because Torres was his friend, and also because he
thought that taking a non-gang member with him would help prevent the situation from
“escalat[ing]” into a “Sureño-Norteño thing.” Ortega brought a gun with him because he
always carried a gun for protection. He had no intentions on using it, but he “felt like
[his] life [was] in danger.”
6

APPENDIX C

Ortega testified that he told Vidrio how to get to Rocky Hill, and where to park the
car. Ortega sent a text message to Guizar asking him where “they” were. He explained
at trial that the “they” in the text message referred to the Norteños who were threatening
Guizar; he wanted to know where they were so that he could avoid them. When asked,
“So . . . you’re going to look for your cousin. Why didn’t you ask your cousin in these
text messages where he was at?”, Ortega responded, “Because I thought I knew where he
lived, because I kind of knew where he lived at, so I was just going off of what I was
remembering. . . .” Ortega testified that he and Torres got out of the car to look for
Guizar. They walked to the bottom of a hill and began to walk back toward where Vidrio
had parked the car, when he heard someone yell, “[w]ho the fuck are you?” Knowing he
was in enemy territory, Ortega put his hooded sweatshirt on so that the Sureño tattoos on
his neck would not be visible. He stepped back and answered, “[w]ho are you.”
Ortega testified that the person doing the talking stood out to him and appeared to
be very aggressive. He answered Ortega’s question by saying, “Rocky Hill,” which
Ortega took as a challenge and a threat. Another one of the three individuals said “yeah.”
The person who said, “yeah” had his hand hidden, as if he were holding a gun, then made
a sudden move like he was pulling out a gun. Ortega was scared and shaken when he
saw this, and started shooting. Ortega testified, “I felt like I had to pull my gun before it
was pulled on me. So I felt like my life was in danger.” After emptying his gun, he ran
back up the hill to Vidrio’s car, got into the car, and told Vidrio to “go.” Ortega told
Vidrio that he thought he had “hit” someone because he saw someone fall and get back
up and run away after the shooting stopped. The police pursued him, Torres, and Vidrio,
and the chase came to an end when Vidrio’s car crashed. Ortega attempted to dispose of
the gun by throwing it away after the crash.
Ortega initially told police he was not involved and did not know what anyone was
talking about. Then he said he did not know about the gun, even though he did. Later in
the interview, he started to talk about the phone call from Guizar and going to Vacaville.
He lied to police for most of the interview and failed to mention self-defense because he
lied about many things and did not know the law. He testified that he lied to get the
7

APPENDIX C

interview over with, and that he kept changing the lie. When he told police that others
“banged on” him, he did not mention self-defense. He repeatedly tried to end the
interview. Ortega told his ex-girlfriend in a phone call that he need to pray to God for
what he had done.
Torres called Dr. Robert Shomer as an expert in eyewitness identification.
Shomer testified that under stress, one’s process of perceiving and recording in memory
does not work as accurately as they do in calm situations. Beyond 24 hours, inaccuracy
in identification rises tremendously, and the presence of guns raises the stress level. He
testified that if there is a hostile interaction, “there’s a tremendous chance of
misperception and misinterpretation of what’s going on.”
Torres, who was 20 years old at the time of the incident, also testified in his own
defense. He testified that he grew up in an area with gang members and had friends who
were Sureño or Norteño gang members, but that he had never been in a gang. In March
2010, Ortega was living in Torres’s home. Torres knew Ortega was a Sureño, but Torres
had never committed any crime with gang members, had never done gang graffiti, and
had never gone to gang functions. On March 5, 2010, Ortega asked Torres if he would
go with him to Vacaville to pick up his cousin, Guizar, who had been jumped. Torres did
not know Guizar but agreed to go. They got in Vidrio’s car and drove to Vacaville.
Torres was not familiar with the Rocky Hill neighborhood and did not think there would
be a fight or a confrontation.
Ortega gave Vidrio directions and they drove around an apartment complex two or
three times without seeing anyone. Torres thought Ortega tried to call Guizar, but that he
could not reach him. Torres suggested they go home but Ortega told Vidrio to stop the
car, and Torres and Ortega got out of the car. They saw a group of people, and Torres
was a little scared and walked back a little bit. Someone asked, “Where the fuck are you
guys from?” Torres thought Ortega said, “Bay Area,” and that one of the others said,
“Rocky Hill Posse.” He also heard someone say “Yeah.”
One of the men came toward them with his hand inside his sweater. He pulled his
hand out, and Torres thought he was going to pull out a gun. Torres turned his back and
8

APPENDIX C

began to get ready to run. He heard a gunshot, pulled out his gun, and shot as he ran. He
testified he tried to shoot it in the air because “I didn’t want to hit nobody.”6 He thought
if he fired his gun, the others would get scared and stop firing. He ran to the car and
Vidrio drove off. Torres threw his gun out the window because he was scared and did
not want to get caught with it. He testified that he was carrying a gun that day for safety
because he had just been jumped, robbed at gunpoint, and shot at by gang members. He
identified the .9mm gun as his.
Vidrio testified he met Ortega in middle school or high school and knew Ortega
was a Sureño. Vidrio had known Torres for three years; they would smoke marijuana
together. On the afternoon of March 5, 2010, he and Ortega made arrangements to go
smoke marijuana “on the freeway.” Vidrio drove to Torres’s place and picked Ortega
and Torres up. As Vidrio drove, Ortega told Vidrio to get off the freeway in Vacaville
and gave him directions. Vidrio was not a gang member and did not know what Ortega
and Torres were going to do. He did not see either Ortega or Torres with guns, and
neither was wearing gloves or a hood. Once they arrived in the location Ortega had
directed him to, Ortega and Torres left the car. As Vidrio was about to make a phone
call, he heard gunshots, and Ortega and Torres ran up to the car. Ortega said, “I got
somebody. I think I shot somebody,” and told Vidrio to “Go, go.” Vidrio saw Ortega
with a gun. Vidrio did not hear Torres say anything. When Vidrio heard sirens, he did
not pull over because Ortega had a gun and he was scared for his life. His car crashed
and he took off running but eventually surrendered.
Michelle Vega, Ortega’s sister, told police that she received a phone call from
Ortega at about 7:04 p.m. on March 5, 2010. He appeared to be crying and upset, and she
could hear police sirens in the background. He said he was going away for a long time,
that it was “over” for him, and that he was going to prison. He also said the whole thing
was Guizar’s fault.
6

A police officer testified that a .9mm hole was found in the grill of a Ford
Expedition, and that if a .9mm bullet had been fired into the air, it would not have gone
into the vehicle’s grill.
9

APPENDIX C

DISCUSSION
I. Constitutional Rights
A. Background
After his arrest, Ortega waived his rights under Miranda v. Arizona (1966)
384 U.S. 436 (Miranda) and was interviewed by police. At trial, Ortega testified, among
other things, that he shot the victims in self-defense. During cross-examination, the
prosecutor asked Ortega about statements he made during the police interview and asked,
“You haven’t told anyone until today that you were trying to defend yourself, correct?”
The trial court overruled an objection and Ortega responded, “Well, yes, because when I
said they were banging on me, that’s where that came in.” The prosecutor asked, “And
then you responded to say it was in an attempt to scare [the three individuals]?” Ortega
responded, “Yeah, because I’m not . . . a killer. I didn’t mean to kill nobody. So I wasn’t
trying to kill nobody. I was just trying to get out of there for my safety.”
The prosecutor then asked, “And didn’t you think it was important, if you were
acting in self-defense, to tell the police the truth?” Ortega responded, “I was lying to
them about a whole bunch of different things . . . I didn’t know the law or nothing like
that. I knew what I acted on, but I didn’t elaborate on that. No I didn’t.” The prosecutor
asked, “Did you think to tell the police officers that were interviewing you that you were
acting in self-defense?” Ortega responded, “No.” The prosecutor asked, “And you never
said that it was in self-defense?”, and Ortega responded, “Well, I told them that they
banged on me, and that kind of went that way. I didn’t elaborate. He didn’t even ask me,
‘What do you mean by “banged on me”?’ He didn’t ask me what were they doing or
anything like that. So I didn’t know that, just by them doing that and the way I felt, that
that was self-defense.”
In closing, the prosecutor argued, “So this picking up Alex [Guizar] story is a way
to get you to understand why they were in Norteño territory. It’s a lie. It’s a false
statement. It’s a way to make the evidence fit their story. Because they never once told
Sergeant Dye that—talking about Mr. Ortega, he never says, ‘Hey, I was just going over
there to pick up Alex.’ I asked him, he says, ‘Yeah, I was—I was tired of talking to those
10

APPENDIX C

cops.’ Yeah, ‘Well, you never told them that it was self-defense either, did you?’ ‘No, I
was tired of talking to them.’ Well, you know what? If you were completely innocent of
this crime, because this is a self-defense crime, and you were just over there picking up
your cousin, minding your own business, that would be the first thing you would say.”
The trial court overruled Torres’s counsel’s objection that the argument was irrelevant.
The prosecutor continued: “And then I asked Mr. Ortega on the stand, ‘Did you ever tell
anyone, prior to this trial, that this was self-defense in law enforcement? Did you ever
tell one police officer that this was self-defense?’ ‘Nope. Huh-uh.’ ”
Ortega’s counsel said in closing: “Ms. Ray [the prosecutor] said that if he was
acting in self-defense, why didn’t he tell . . . Detective Dye . . . when he was being
interrogated? And Mr. Ortega tried to explain that to you, about what was going through
his mind. And what we know is all of the events of that day . . . he’s being gang-banged
on, and then he sees this movement, and then he’s firing a gun, emptying his gun. He
gets into a high-speed chase. They crash. He runs. He hides in a garbage tote. It’s
kicked over. A dog, a canine grabs the top of his head . . . what it goes to is Mr. Ortega’s
state of mind that night when he talked to the police . . . [¶] . . . And he’s taken to the
hospital. Then he’s taken to be interrogated. All that is happening. And you heard that
he kept saying, ‘I wanted it to end. I said I didn’t want to talk any more. I put my shirt
over my head,’ and basically crawled inside of his shirt. He didn’t want to keep talking
to the police officer any more. He would say parts of it. He would say that they gangbanged on him. . . .”
B. Contention
1. Doyle
Ortega contends the trial court violated his constitutional rights by allowing the
prosecutor to question him—and argue—about his failure to claim self-defense before he
testified at trial. He relies on Doyle v. Ohio (1976) 426 U.S. 610, 619 [96 S.Ct. 2245]
(Doyle) in asserting that “it is fundamentally unfair to allow an arrested person’s silence
following the giving of his [Miranda rights] to be used to impeach an explanation
subsequently offered at trial.” Ortega acknowledges that his counsel did not object on
11

APPENDIX C

this ground and asserts his counsel was ineffective for failing to do so. Assuming,
without deciding, there was no forfeiture, we conclude the contention fails on the merits.7
In Doyle, the United States Supreme Court held it was a violation of due process
and fundamental fairness to use a defendant’s postarrest silence following Miranda
warnings to impeach the defendant’s trial testimony. (Doyle, supra, 426 U.S. at p. 619
[96 S.Ct. at pp. 2245–2246].) It is settled, however, that Doyle does not apply when a
defendant presents exculpatory testimony at trial that is inconsistent with a voluntary
post-Miranda statement. (Anderson v. Charles (1980) 447 U.S. 404 [100 S.Ct. 2180]
(Anderson).) In Anderson, a murder defendant waived his Miranda rights and told police
that he had stolen the victim’s car from a particular location. (Id. at p. 406 [100 S.Ct. at
pp. 2180–2181].) At trial, he testified that he stole the car from a different location, and
the prosecutor asked, “ ‘Don’t you think it’s rather odd that if it were the truth[,] that you
didn’t come forward and tell anybody at the time you were arrested, where you got the
car?’ ” (Ibid.)
The United States Supreme Court held: “Doyle bars the use against a criminal
defendant of silence maintained after receipt of governmental assurances. But Doyle
does not apply to cross-examination that merely inquires into prior inconsistent
statements. Such questioning makes no unfair use of silence because a defendant who
voluntarily speaks after receiving Miranda warnings has not been induced to remain
silent. As to the subject matter of his statements, the defendant has not remained silent at
all.” (Anderson, supra, 447 U.S. at p. 408 [100 S.Ct. at p. 2182]; People v. Collins
(2010) 49 Cal.4th 175, 203; Wainwright v. Greenfield (1986) 474 U.S. 284, 292
[106 S.Ct. 634, 639] [“The point of the Doyle holding is that it is fundamentally unfair to
promise an arrested person that his silence will not be used against him and thereafter to
breach that promise by using the silence to impeach his trial testimony.”]; Fletcher v.
7

In light of our conclusion that the contention is without merit, we also conclude
that Ortega’s ineffective assistance of claim fails. (See Strickland v. Washington (1984)
466 U.S. 668, 687 [to prevail on a claim of ineffective assistance of counsel, a defendant
must show both defective performance and resultant prejudice].)
12

APPENDIX C

Weir (1982) 455 U.S. 603, 603–604, 607 [102 S.Ct. 1309, 1310] [refusing to extend
Doyle to cover prosecutor’s comment on post-arrest silence by defendant in the presence
of the police when they had not given him Miranda warnings].)
Similarly, here, Doyle does not apply because the prosecutor, through her
questioning and argument, was not referring to Ortega’s exercise of his right to remain
silent, but to the actual statements he made to police after waiving his Miranda rights—
statements the prosecutor argued were inconsistent with what he later testified to at trial.
In the same way the prosecutor in Anderson asked, “ ‘Don’t you think it’s rather odd that
if it were the truth[,] that you didn’t come forward and tell anybody at the time you were
arrested, where you got the car?’ ”, the prosecutor in the present case questioned why
Ortega did not tell police during the many hours of questioning that he shot in selfdefense, if that were truly what had occurred. (Anderson, supra, 447 U.S. at p. 406
[100 S.Ct. at pp. 2180–2181].) The prosecutor also pointed out that Ortega told police
that he shot the three individuals “in an attempt to scare them,” thereby trying to
demonstrate for the jury the dramatic inconsistency between what Ortega told police and
what he was telling the jury at trial.
Ortega suggests that Anderson is inapplicable because in his case, “there is
evidence in the record that the police did not obey a defendant’s invocation of his right to
silence. . . .” It was, however, undisputed that Ortega waived his Miranda rights and
gave a statement to police. Although Ortega testified that he told police on multiple
occasions that he wished to stop talking, the defense never challenged the admissibility of
his statement on that ground, and therefore forfeited the claim. Moreover, the record on
appeal includes only references to isolated portions of Ortega’s interview; there is
nothing that shows what points, if any, during his statement Ortega allegedly invoked his
right to remain silent. Thus, even if we were to conclude that the issue is preserved for
appeal, we would be unable to conclude that Ortega unambiguously invoked his right to
silence during questioning. (See Berghuis v. Thompkins (2010) 507 U.S. 370, 381
[130 S.Ct. 2250, 2259–2260] [to cut off questioning by law enforcement officers, an
accused must unambiguously invoke his right to remain silent].)
13

APPENDIX C

2. Sixth Amendment and Evidence Code Section 954
Without much argument or citation to relevant authority, Ortega contends the
prosecutor’s questions and comments also violated his constitutional rights under the
Sixth Amendment and his statutory right under the Evidence Code to refuse to disclose a
confidential communication between himself and his counsel. Assuming there was no
forfeiture, we conclude the contention fails on the merits.
As noted, the prosecutor asked Ortega, “You haven’t told anyone until today that
you were trying to defend yourself, correct?” Ortega’s claim on this issue is not entirely
clear, but it appears he is arguing that this question violated his rights because it forced
him into the unfair choice of either giving up his attorney-client privilege and revealing
what he told or did not tell counsel regarding self-defense, or falsely stating he had not
told anyone, if in fact he had told counsel. The record shows, however, that the
prosecutor asked this question in the midst of a series of questions relating to statements
Ortega made to police during the interview. For example, the prosecutor had just asked
Ortega about the various statements he had made to police, and had asked, “But you
didn’t say that you were trying to defend yourself, correct?” Ortega responded, “No, I
didn’t.” The jury therefore would have reasonably understood the prosecutor’s question
to be referring to Ortega’s failure to raise a self-defense theory during the police
interview. (See People v. Samayoa (1997) 15 Cal.4th 795, 841 [when evaluating
comments made by the prosecutor before the jury, the question is whether there is a
reasonable likelihood that the jury construed or applied any of the complained-of remarks
in an objectionable fashion].)
Ortega’s response to the prosecutor’s question shows he also understood the
question as referring to statements he made during the police interview: “Well, yes,
because when I said they were banging on me, that’s where that came in.” The
prosecutor then asked, “you never said in your interview . . . that you had any reason to
shoot at the victims except for to scare them, correct?” Ortega responded, “Correct. But
when they started banging on me, that’s why I pulled out my gun, because I was trying to

14

APPENDIX C

get out of there.” We conclude there was no violation of Ortega’s constitutional or
statutory rights.
3. Harmless Error
We further conclude that even if there was error relating to the prosecutor’s
questions or comments during closing argument, any error was harmless beyond a
reasonable doubt, because without any of the challenged questions or comments by the
prosecutor the record would have been no better for Ortega, and the jury’s verdicts would
have been no different. Without objection and before any of the questions or comments
Ortega now challenges occurred, the prosecutor asked him: “But you didn’t say that you
were trying to defend yourself, correct?” Ortega answered, “No, I didn’t.” That
interchange alone permitted the prosecutor to argue to the jury that it should discredit
Ortega’s testimony because he had not told his self-defense story to the police.
Any error was also harmless because the evidence overwhelmingly refuted selfdefense regardless of Ortega’s statement to the police. There was evidence that Ortega,
armed with a shotgun, went to Rocky Hill in order to confront the Norteños who had
threatened his cousin. He testified that he went to Rocky Hill to pick up Guizar, but he
sent a text message to Guizar asking where “they,” i.e., the Norteños, were, not where
Guizar was. He engaged a driver for a quick getaway and brought a fellow gunman with
him. He wore nondescript clothing and covered his hands with gloves, and engaged the
victims by pretending to be Norteño. He opened fire in close range, emptying his gun.
He and Torres killed the one person in the area they had a reason to kill if they were
indeed on the retaliatory mission the evidence suggested—the person who had fought
with Ortega’s cousin that afternoon. After the shooting, Ortega spoke to both his sister
and an ex-girlfriend about the incident, but there was no evidence he mentioned selfdefense to either of them.
Ortega asserts that the length of jury deliberations—six court days—indicated that
the case was a close one. Even if six days of jury deliberations after a two-week trial can
be considered lengthy, that does not show that the jury believed the self-defense claim
was plausible. The jury ultimately found against the prosecution on the questions of
15

APPENDIX C

whether the murder and attempted murders were premeditated, whether Vidrio was an
accomplice, and whether the crimes were gang related. Accordingly, the lengthy jury
deliberations suggested that the jury struggled with those questions, not necessarily with
self-defense.
II. Prosecutorial Misconduct
A. Ortega’s Claim of Prosecutorial Misconduct
Ortega contends the prosecutor committed misconduct by questioning Ortega and
commenting on his failure to claim self-defense, and by disparaging defense counsel. We
reject the contention.
The applicable federal and state standards regarding prosecutorial misconduct are
well established. “ ‘A prosecutor’s . . . intemperate behavior violates the federal
Constitution when it comprises a pattern of conduct “so egregious that it infects the trial
with such unfairness as to make the conviction a denial of due process.” ’ ” (People v.
Gionis (1995) 9 Cal.4th 1196, 1214; People v. Espinoza (1992) 3 Cal.4th 806, 820.)
Conduct by a prosecutor that does not render a criminal trial fundamentally unfair is
prosecutorial misconduct under state law only if it involves “ ‘ “the use of deceptive or
reprehensible methods to attempt to persuade either the court or the jury.” ’ ” (People v.
Espinoza, supra, 3 Cal.4th at p. 820.) As a general rule, a defendant may not complain
on appeal of prosecutorial misconduct unless in a timely fashion—and on the same
ground—the defendant made an assignment of misconduct and requested that the jury be
admonished to disregard the impropriety. (People v. Samayoa, supra, 15 Cal.4th at
p. 841.) In addition, when the claim focuses upon comments made by the prosecutor
before the jury, the question is whether there is a reasonable likelihood that the jury
construed or applied any of the complained-of remarks in an objectionable fashion.
(Ibid.)
In light of our conclusion that the prosecutor’s questioning and argument about
Ortega’s failure to claim self-defense before trial was not improper, we conclude those
acts by the prosecutor did not constitute misconduct. As to his claim that the prosecutor
improperly disparaged counsel, we find the contention is without merit. Ortega asserts
16

APPENDIX C

the prosecutor “disparaged defense counsel” by arguing to the jury “that the defendants
had ‘two years’ to ‘backfill their story;’ ” and “ ‘two years to think about what they were
going to say . . . to look over the evidence and make decisions on what they were going to
tell you.’ ” Ortega argues that the prosecutor essentially told the jury that “appellant,
with the help of defense counsel, was fabricating evidence and suborning perjury,” since
defense counsel was “the only person who could provide appellant with the evidence”
and who “could ‘tell’ appellant what to say . . . .”
Assuming there was no forfeiture, we conclude the contention lacks merit because
there is no reasonable likelihood that the jury misapplied the law due to the prosecutor’s
statements. (See People v. Samayoa, supra, 15 Cal.4th at p. 841.) [a prosecutor’s
comments before the jury do not rise to the level of misconduct absent a reasonable
likelihood that the jury “construed or applied any of the complained-of remarks in an
objectionable fashion”].) In People v. Zambrano (2007) 41 Cal.4th 1082, 1154,
disapproved on other grounds in People v. Doolin, supra, 45 Cal.4th at page 421,
footnote 22, the prosecutor called defense counsel’s argument “a ‘lawyer’s game’ and an
attempt to confuse the jury by taking the witness’s statement out of context.” The court
concluded the argument was permissible because it “was aimed solely at the persuasive
force of defense counsel’s closing argument[] and not at counsel personally.” (People v.
Zambrano, supra, 41 Cal.4th at p. 1155.)
Similarly, here, the prosecutor did not attribute the argument she criticized to
defense counsel. “[A] court should not lightly infer that a prosecutor intends an
ambiguous remark to have its most damaging meaning or that a jury, sitting through
lengthy exhortation, will draw that meaning from the plethora of less damaging
interpretations.” (Donnelly v. DeChristoforo (1974) 416 U.S. 637, 647.) The
prosecutor’s statement that the defendants had two years to contrive their stories implied
nothing more than that the jury should disbelieve the defendants because they had all the
time they needed to tailor their stories to the evidence against them. The argument
neither said nor implied anything about defense counsel’s role. There was no
misconduct.
17

APPENDIX C

B. Torres’s Claim of Prosecutorial Misconduct
1. Background
During closing, the prosecution argued, “Let’s take some of the defense witnesses,
and we’re going to view all of them with the same critical eye. [¶] Who has a motive to
lie in this case? Who had the time to, quote, backfill their story, as Dr. Shomer told you.
Well, I don’t know. The defendants had two years to do that, because they surely didn’t
tell this version of the story that you heard to the police when they were interviewed on
the day of the crime. . . .” Torres’s counsel and Vidrio’s counsel each objected without
stating a reason, and the trial court overruled the objections. The trial court overruled
two additional objections from Vidrio’s counsel—“[m]isstates [sic] facts not in evidence”
and “[p]rosecutorial misconduct”—and denied a request from Vidrio’s counsel for a
limiting instruction. The prosecutor continued, “So you take into consideration who was
telling you the truth and who had motive to not tell you the truth. The defendants are the
only ones that had a motive to not tell you the truth. They’re on trial there. They had two
years to think about what they were going to say, two years to look over the evidence and
make decisions on what they were going to tell you.”
2. Contention
Torres contends that because no evidence was presented to the jury that he had
even spoken to police, the prosecutor committed misconduct by implying that he had told
a different story to police when he was interviewed on the day of the incident.8 He
argues that the prosecutor, by her statement, essentially, and improperly, “informed the
jurors that she had information undisclosed to them.” Assuming Torres did not forfeit
this contention by failing to object on the ground upon which he challenges the
statements on appeal, we conclude it fails on the merits.

8

According to the probation report, Torres initially waived his Miranda rights and
made a statement to police before he ended the interview by invoking his right to have a
lawyer present. In his statement to police, Torres said he did not know the co-defendants
and was merely hitchhiking to Fairfield. We do not find in the record any indication that
Torres’s statement was introduced into evidence.
18

APPENDIX C

As noted, “a court should not lightly infer that a prosecutor intends an ambiguous
remark to have its most damaging meaning or that a jury, sitting through lengthy
exhortation, will draw that meaning from the plethora of less damaging interpretations.”
(Donnelly v. DeChristoforo, supra, 416 U.S. at p. 647.) Here, the prosecutor’s
undifferentiated reference to “the defendants” was ambiguous. It could have meant two
of the defendants, or all three. The trial court properly instructed the jury to decide the
facts based only on the evidence, which the court defined to specifically exclude anything
the attorneys said in their closing arguments. Having heard only evidence of Ortega and
Vidrio being interviewed on the day of the crime, and having heard no evidence that
Torres was ever interviewed, a reasonable jury would have determined that the
prosecutor was referring only to Ortega and Vidrio, and not Torres.
The record supports a conclusion that the jury would have been particularly likely
to interpret the prosecutor’s argument to refer only to Ortega and Vidrio because, after
arguing “the defendants” told the police a different story from what they said at trial, the
prosecutor explained, “Mr. Ortega never tells the police that he was acting in self
defense. [¶] Mr. Vidrio never tells the police that he’s just out for a ride . . . .” She made
no mention of Torres as having spoken to the police, thereby suggesting that it was
Ortega and Vidrio, and not Torres, to whom the prosecutor was referring when she said
“the defendants.” In addition, the trial court instructed in one of its jury instructions:
“You have heard evidence that defendants Rudolfo Ortega and Jesus Vidrio made
statements before trial. You may consider that evidence only against the defendant who
made the statement and not against any other defendant.” (Italics added.) Another jury
instruction stated in part: “If the defendants Rudolfo Ortega and/or Jesus Vidrio made a
false or misleading statement before this trial . . . knowing the statement was false or
intending to mislead, that conduct may show he was aware of his guilt of the crime and
you may consider it in determining his guilt. You may not consider the statement in
deciding any other defendant’s guilt . . . .” Those instructions also assisted the jury in
reasonably determining that the statements to which the prosecutor referred must have
been statements made by Ortega and Vidrio, and not Torres.
19

APPENDIX C

Moreover, any error was harmless under any standard because the evidence
refuted Torres’s claim of self-defense as overwhelmingly as it did Ortega’s. Torres
accompanied his housemate, a known Sureño gang member, to a Norteño area in
Vacaville, carrying a loaded gun, yet claimed he did not think there would be a fight or a
confrontation. He believed they were there merely to “pick up” Guizar, and that he did
not realize Ortega was armed. Torres testified that he began shooting only after he had
his back turned and heard a gunshot, and thought it was Padilla who was shooting. He
testified that he shot in the air, but there was evidence that multiple bullets from the gun
that he admitted he carried with him that day were found in areas, including the grill of a
car, that the bullets would not have gone into if they had been fired into the air. Given
these incongruities, and the overwhelming evidence against him, any error would have
been harmless beyond a reasonable doubt.
III. Exclusion of Evidence
Both appellants contend the trial court prejudicially erred by excluding defenseproffered evidence that R.E. possessed a gun on two dates after the incident occurred—
April 19, 2011 and January 1, 2012—and therefore “has the character of a gun carrying
gang member.”9 We reject the contention.
Evidence Code section 1103, subdivision (a)(1), permits a defendant to “offer[]
evidence regarding the character or trait of a victim ‘to prove conduct of the victim in
conformity with the character or trait of character.’ ” (People v. Gutierrez (2009)
45 Cal.4th 789, 827.) Evidence Code section 352 permits a trial court to exclude
evidence that would confuse the issues at trial, unduly consume time, or be more
prejudicial than probative. An appellate court reviews such a ruling deferentially,

9

Although the trial court referred to its ruling as “tentative” and informed the
parties that it may revisit the issue at a later date depending on what facts were presented
at trial, there is nothing in the record indicating the court made any “final” ruling
regarding the admissibility of this evidence. We therefore consider the trial court’s
“tentative” decision excluding the evidence to be the court’s final determination on this
matter.
20

APPENDIX C

overturning it only upon finding that the trial court abused its discretion. (See, e.g.,
People v. Cole (2004) 33 Cal.4th 1158, 1195.)
We conclude there was no error because the proffered evidence was not relevant.
Appellants assert that the proffered evidence could have assisted the defense in
demonstrating that they believed that one of the three individuals—Padilla, K.H., or
R.E.—had a gun, and that they therefore reasonably acted in self-defense. Ortega relies
on People v. Shoemaker (1982) 135 Cal.App.3d 442, but that case refutes appellants’
claim. The court in that case stated, “Character at an earlier or later time than that of the
deed in question is relevant only on the assumption that it was substantially unchanged in
the meantime, i.e. the offer is really of character at one period to prove character at
another, and the real question is of relevancy of this evidence to prove character, not of
the character to prove the act.” (Id. at p. 447, italics added.) Here, the proffered evidence
showed at most that R.E. was “a gun carrying gang member” in 2011 and 2012, after the
charged crimes. R.E.’s father reported to probation after the incident, “even though I
didn’t lose my son, I lost my son,” referring to how R.E.’s personality, outlook on life,
and behavior, had changed after the incident in which he was shot and severely injured by
appellants, at least one of whom was a Sureño. The proffered evidence showed nothing
more than that R.E. had become “a gun carrying gang member” by 2011 and 2012, not
that he was more likely to have been one at the time of the shooting in 2010. In other
words, the evidence was irrelevant because the defense failed to show that R.E.’s
character was “substantially unchanged” after—or by—the shooting. (Id. at p. 445.)
Even assuming the evidence had some relevance, we would conclude it was only
minimally relevant, and agree with the trial court that any probative value was far
outweighed by its potential for confusing the jury and consuming time as the parties
would have had to adjudicate the facts of the subsequent events. Accordingly, the trial
court did not abuse its discretion in excluding the evidence as substantially more
prejudicial than probative. (See Evid. Code, § 352.) Because there was no error under
state law, appellants’ constitutional claims also fail. (See People v. Linton (2013)

21

APPENDIX C

56 Cal.4th 1146, 1202.) Finally, we conclude that any error was harmless because, as
stated above, there was overwhelming evidence that appellants did not act in self-defense.
IV. Cumulative Error
Both appellants contend there was cumulative error. In light of our conclusion
that there was no error, or that even if there was error, there was no prejudice, we
conclude there was no cumulative prejudicial error. (See Beardslee v. Woodford (9th Cir.
2004) 358 F.3d 560, 591 [“Each of these potential errors is harmless individually.
Although they carry slightly more weight cumulatively, the aggregate errors still fall
short of causing a substantial impact on the verdict or the denial of a fundamentally fair
trial”]; People v. Rountree (2013) 56 Cal.4th 823, 860 [no cumulative prejudice where
“there was no error to accumulate.”]; People v. Homick (2012) 55 Cal.4th 816, 875,
fn. 35 [rejecting a claim of cumulative prejudice by finding that “[t]he occasional
evidentiary error defendant points to could not have had a prejudicial impact sufficient to
require reversal”].)
V. Cruel and Unusual Punishment
Torres challenges his sentence of 86 years and four months to life in prison on the
ground that it constitutes cruel and unusual punishment under the federal and state
constitutions. We reject the contention.
When a defendant over the age of 18 commits murder, a term-of-years sentence
that is the functional equivalent of life without parole is not necessarily cruel and unusual
punishment under the federal constitution or cruel or unusual punishment under the state
one. (People v. Argeta (2012) 210 Cal.App.4th 1478, 1482.) “To determine whether a
sentence is cruel or unusual under the California Constitution as applied to a particular
defendant, a reviewing court must examine the circumstances of the offense, including
motive, the extent of the defendant’s involvement in the crime, the manner in which the
crime was committed, and the consequences of the defendant’s acts. The court must also
consider the personal characteristics of the defendant, including his or her age, prior
criminality, and mental capabilities. [Citation.] If the penalty imposed is “ ‘grossly
disproportionate to the defendant’s individual culpability’ ” [citation], so that the
22

APPENDIX C

punishment “ ‘ “ ‘shocks the conscience and offends fundamental notions of human
dignity’ ” ’ ” [citation], the court must invalidate the sentence as unconstitutional.”
(People v. Lucero (2000) 23 Cal.4th 692, 739–740.)
Torres notes only the factors arguably in his favor: that he was 20 years old at the
time of the crimes, did not intend to kill, and had no previous criminal convictions. He
fails to mention that there was ample evidence that the shootings were a planned,
surprised attack that killed one teenager, severely wounded another, and narrowly
avoided injuring a third. There was evidence that Torres fired his gun approximately ten
times, and not in the air as he claimed he had done. Given the severity of the injuries and
death he caused, and the further injuries he could have caused, a de facto sentence of life
without parole is not grossly disproportionate to his culpability. (See People v. Rhodes
(2005) 126 Cal.App.4th 1374, 1390–1391 [sentence of life without parole for second
degree murder of peace officer and injury to others not cruel and unusual punishment].)
DISPOSITION
The judgment is affirmed.
_________________________
McGuiness, P.J.

We concur:

_________________________
Siggins, J.

_________________________
Jenkins, J.

23

APPENDIX C

